IN THE SUPREME COURT OF THE UNITED STATES
ROOSEVELT JOHNSON,
Petitioner,
v.

Case No.

STATE OF FLORIDA,
Respondent.

JOINT APPENDIX TO PETITION FOR WRIT OF CERTIOR ART

On Petition for Writ of Certiorari to the First District Court of Appeal of Florida.

Petitioner’
Roosevelt/fohnson
DC# 390758
Okaloosa Correctional Institution
3189 Colonel Greg Malloy Road
Crestview, Florida 32539-6708
Respondent:
Attorney General, State of florida,
The Capitol Pl-01,
Tallahassee, Florida, 32399

Petition for Writ of Certiorari was filed on June /fr 2020.

INDEX OF APPENDICIES
Appendix-A,

2020 Opinion Affirming Lower Court's Denial

Appendix-B

Mandate of the Opinion Affirming Denial

Appendix-C

Lower Court's Order Denying Relief

Appendix-D

1991 Opinion Affirming Denial

Appendix-E

.......................................................2001 Opinion Affirming Denial

Appendix-F.

.................Motion Filed in Lower Court Requesting Habeas Relief

Appendix-G.

Appellate Brief on the Merits of Motion Requesting Habeas Relief .

Appendix-A

/

First District Court of Appeal
State of Florida
No. 1D19-2148
Roosevelt Johnson,
Appellant,
v.
State of Florida,
i

Appellee.

On appeal from the Circuit Court for Alachua County.
Mark W. Moseley, Judge.
March 27, 2020
Per Curiam.
Affirmed.
Wolf, B.L. Thomas, and Roberts, JJ. , concur.

Not final until disposition of any timely and
authorized motion under Fla. R. App. P. 9.330 or
9.331.

Appendix-B

/

mandate
from

FIRST DISTRICT COURT OF APPEAL
STATE OF FLORIDA
having™^ o™^een br°Ugh‘ ,0 "* ^ ^ ato dUe

Court

Ann,,.^^8 'S* H“norable S«Phanie W. Ray, Chief Judge, of the District Court of
^ppeal of Florida, First District, and the seal of said Court at Tallahassee, Florida, on this
i

April 17, 2020
Roosevelt Johnson v.
State of Florida
DCA Case No.: ID 19-2148
Lower Tribunal Case No.: 01-1988-CF-3205-A

KRISTINA SAMUELS, CLERK
District Court of Appeal of Florida, First District

th
Mandate and opinion to: Hon. J. K. "Jess" Irby, Clerk
cc: (without attached opinion)
Hon. Ashley Moody, AG
Richard L. Rosenbaum

Appendix-C

1 V*

IN THE CIRCUIT COURT OF
#
THE EIGHTH JUDICIAL CIRCUIT
IN AND FOR ALACHUA COUNTY, FLORIDA
STATE OF FLORIDA,
Plaintiff,
vs.

CASE NO.:

01-1988-CF-003205-A

DIVISION:

H

ROOSEVELT JOHNSON,
Defendant.

ORDER DENYING SUCCESSIVE MOTION FOR POSTCONVICTION RFJ.TF.ff
THIS CAUSE comes before the Court upon Defendant's “Successive Motion for
Postconviction Relief Based Upon Manifest Injustice, or In the Alternative, Successive Petition for
Writ of Habeas Corpus Based Upon Manifest Injustice; Request for an Evidentiaiy Hearing, and
Incorporated Memorandum of Law,” filed May 3, 2019, pursuant to Fla. R. Crim. P. 3.850;
Appendix 1,” filed May 6, 2019; and, “Motion for Leave of Court to Enlarge Post Conviction
Motion Page Limitation,” filed May 3,2019. Upon consideration of the motions, the memorandum
of law, the appendix, and the record, this Court finds and concludes as follows:
Defendant s motion is procedurally barred as untimely under Fla. R. Crim.

P. 3.850(b). A

rule 3.850 motion is untimely if filed beyond the two-year limit prescribed by the rule. See Wilkinson
v. State, 504 So.2d 29,29 (Fla. 2d DCA1987). The motion must be filed within two years after the
movant’s judgment and sentence become final. See Fla. R. Crim. P. 3.850(b). A movant’s judgment
and sentence become final “when any such direct review proceedings have concluded and
jurisdiction to entertain amotion for post-conviction relief returns to the sentencing

court.” Wardv.

Dugger, 508 So.2d 778,779 (Fla. 1st DCA 1987). Defendant’sjudgment and sentence became final

Order Denying Successive Motion for Postconviction Relief
State vs. Roosevelt Johnson
Case No. 01-1988-CF-003205-A
Page 2
on January 29, 1991, when the First District Court of Appeal issued its mandate on direct appeal.
Johnson v. State, 571 So. 2d 58 (Fla. 1 st DCA1990). Because the instant motion was filed more than
two (2) years after Defendant’s judgment and sentence became final, it is procedurally barred as
untimely. In addition, the motion fails to allege any ground which would meet an exception to the
time-limitation. See McClellion v. State, 186 So. 3a 1129,1132 (Fla. 4thDCA 2016) (“Incanting the
words ‘manifest injustice’ does not excuse the procedural bars.”) (citing Cuffy v. State, 190 So. 3d
86, 87 (Fla. 4th DCA 2015) (“[Rjule 3.850 contains no ‘manifest injustice’ exception to the rule's
time limitation or bar against filing successive postconviction motions.”)); see also Green v. State,
975 So. 2d 1090,1115 (Fla. 2008) (“Habeas corpus is not to be used for additional appeals of issues
that could have been or were raised on appeal or in other postconviction motions.”).
Based on the foregoing, it is ORDERED AND ADJUDGED that:
I.

Defendant’s motion for leave of court to enlarge page limitation is GRANTED.

II.

Defendant’s motion is hereby DENIED. Defendant may appeal this decision to the
First District Court of Appeal within thirty (30) days of this Order’s effective date.

DONE AND ORDERED in Chambers at Gainesville, Alachua County, Florida, on this

/I day of May 2019.

W. MOSELEY/
Circuit Judge

Appendix-D

ROOSEVELT JOHNSON, Appellant, v. STATE OF FLORIDA, Appellee
Court of Appeal of Florida, First District
571 So. 2d 58; 1990 Fla. App. LEXIS 9195; 15 Fla. L. Weekly D 2953
Case No. 89-1357
____ ____________ December 5,1990, Filed
Editorial Information: Prior History
Appeal from the Circuit Court for Alachua County, Robert P. Cates, Judge.
Disposition:
Affirmed.
Counsel

Reemberto Diaz, of Diaz & Batista, Hialeah, for appellant.
Robert A. Butterworth, Attorney General; Bradley R. Bischoff
Assistant Attorney General, for appellee.
Judges: Wentworth, J. Miner and Wolf, JJ concur.
CASE SUMMARY
p u?CEI?^,RAL P0STURE: Appellant sought review of a judgment of conviction and sentence for
robbery k'dnapping and sexual battery in the Circuit Court for Alachua County (Florida). He contended
that the trial court erred in admitting an out-of-court identification of him by the victim because it was the
product of an unnecessarily suggestive photographic lineup.Where victim had opportunity to view her

OVERVIEW: Appellant challenged his conviction and sentence for robbery, kidnapping and sexual battery
for which he received a term of life imprisonment. He argued that the trial court erred in admitting an
out-of-court identification of him by the victim because it was the product of an unnecessarily suggestive
photographic lineup procedure. The lineup consisted of the photographs of six black males in addition to
appellant but was not restricted to black men who, like appellant, were known to have been former guests
at the hotel where the victim worked. The single asserted visual contact between appellant and the victim
t°CcCtU/r!dthW^enhthe vict,m registered appellant as a hotel guest. The officer who compiled the lineup also
testified that when compiling the lineup, she had no knowledge of whether any of the six individuals
other
than appellant had been guests at the hotel. Under these circumstances, the court affirmed the
convictions. The court explained that where the victim had an opportunity to view her assailant
—
OUTCOME: The court affirmed appellant’s judgment of conviction. The court held that there was no
substantial likelihood of irreparable misidentification of him by the victim where the victim had an
opportunity to view her assailant face-to-face at the time of the crime and made a positive in-court

2flcases

i

LexisNexis Headnotes
Opinion
Opinion by:

WENTWORTH
Opinion

.

{571 So. 2d 58} Appellant seeks review of a judgment of conviction and sentence for robbery, {571
So. 2d 59} kidnapping and sexual battery, for which he received a term of life imprisonment. Appellant
argues that the trial court erred in admitting an out-of-court identification of appellant by the victim
because it was the product of an unnecessarily suggestive photographic lineup procedure. Appellant
finds no infirmity with the procedure except that the lineup, which consisted of the photographs of six
black males in addition to appellant, was not restricted to black men who, like appellant, were known
to have been former guests at the hotel where the victim worked. The single asserted visual contact
between the victim and appellant prior to the crime occurred when the victim registered appellant as a
guest at the hotel on one occasion a month before the crime. The officer who compiled the
photographic lineup testified that, although she became aware at the time she was compiling the
lineup that appellant had stayed at the hotel on one occasion prior to the crime and had been
registered by the victim, she had no knowledge of whether any of the six individuals other than
appellant had ever been a guest at the hotel or in contact with the victim prior to the crime. We find
that the lineup was not impermissibly suggestive in that context.
Further, under the circumstances of this case, where the victim had an opportunity to view her
assailant face-to-face at the time of the crime, and made a "very certain" in-court identification of
appellant, we find no substantial likelihood of irreparable misidentification. See Grant v. State, 390
So.2d 341 (Fla. 1980). We also note that appellate failed to either move to suppress or object at trial
to this evidence, and finding no fundamental error in the introduction of this out-of-court identification,
we affirm.
Affirmed.

2fl cases

2

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

Appendix-E

ROOSEVELT JOHNSON. Appellant, v. STATE OF FLORIDA, Appellee.
COURT OF APPEAL OF FLORIDA, FIRST DISTRICT
780 So. 2d 65; 2001 Fla. App. LEXIS 586
CASE NO. 1D99-2434
January 12, 2001, Opinion Filed

Notice:
DECISION WITHOUT PUBLISHED OPINION
Editorial Information: Prior History
An appeal from the circuit Court for Alachua County. Stan R. Morris, Judge.
Counsel

Marcia J. Silvers, Esq., of Dunlap & Silvers, P.A., Miami, for Appellant.
Robert A. Butterworth, Attorney General; Sherri T. Rollison,
Assistant Attorney General; James W. Rogers, Chief - Criminal Appeals, Office of the
Attorney General, Tallahassee, for Appellee.
Judges: ALLEN, BENTON, and BROWNING, JJ„ CONCUR.
Opinion

PER CURIAM.
AFFIRMED.
ALLEN, BENTON, and BROWNING, JJ„ CONCUR.

lfl cases

1

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

Appendix-F

.

Filin8 # 88929671 E-Filed 05/03/2019 09:03:39 AM

™ THE

COURT OF THE EIGHTH JUDICIAL CIRCUIT
IN AND FOR ALACHUA COUNTY, FLORIDA

STATE OF FLORIDA,

CASE NO: 88-3205CFA
DIVISION: E2 (COLAW)

Plaintiff,
vs.
ROOSEVELT JOHNSON,
Defendant.

MANiFEST^^^^ynp^^^^,^!^CTTON RELIEF «4SED IJPOivr
mi OF HABEAS r^Hja
”
gMORANDTIMOFfAW
COMES NOW, Defendant, Roosevelt Johnson (‘‘Johnson’
’ or "Defendant"), by and
through his undersigned counsel,

“d

“us Successive Motion For Post-Conviction Relief

Based Upon Manifest Injustice, Or In the Alternative, Successive Petit]
on For Writ Of Habeas
Corpus Based Upon Manifest Injustice; Request Fo
r An Evidential Hearing, And Incorporated
Memorandum Of Law, file
pursuant to Rule 3.850 and Rule 3.800, Florida Rules
of Criminal
Procedure, the Fifth, Sixth and
Fourteenth Amendments to the United States Constitution,
Article I §§ 2,9,13, and 16 of the Florida Constitution, Manifest Injustice
easel aw, and Habeas
Corpus caselaw, requesting this Honorable Court
enter an Order: (1) granting an evidentiary
hearing on the Petition/Moti
on; and thereafter, (2) Vacating Defendant’s Jud
gment and Sentence.
and (3) requests leave: to a) supplement and/or amend Ms claims with new and/or additional
evidence; see Spent v. Sum, 971 So.2d 754 (Fla 2007); Roger, v. State,
782 So.2d 373 (Fla.
2001); Brown v. State, 596 So.2d 1026, 1027 (Fla. 1992);

b) allowing the defendant to add

, 654 So.2d 608 (Fla. 4fh DCA 1995) (trial court moat address new

claims; see Shaw v. State
■___ d-d rule 3.850 motion that ware filed prior to expiration of two-year time
claims filed in
; see also Lanier v. State, 826 So.2d 460
limit and prior to trial court ruling on original motion)
(Fla. 1st DCA 2002); McConn v. State

, 708 So.2d 308 (Fla. 2nd DCA 1998); and c) provide a

flnther memorandum of law in support of his claims for relief should one be deemed accessary,
and as grounds and in support thereof states as follows:
manifest injustice reversal

grant the relief requested by
This Court has inherent jurisdiction and authority to
^inirn, whore failing to do so would
Defendant even on a successive [Rule 3.850] petition or
So.3d 1158, 1162 (Fla. 2d DCA 2012);
result in manifest injustice. Figueroa v. State, 84
Stephens, 974 So.2d at 457. Johnson v. State, 226 So. 3d 908,910 (Fla. 4th DCA 2017).
“The term “manifest injustice

has been acknowledged as an exception to the procedural

bars to post-conviction claims in only the rarest and most

exceptional of situations. Cuffy v.

Staley 190 So. 3d 86,87 (Fla. 4th DCA 2015).
Claims raised below have never been ruled upon by (he trial court mthemerits and
The
demand the relief requested based upon habeas corpus sounding in manifest injustice, ineffective
pplied to die specific facts of
assistance sounding in manifest injustice, and Florida caselaw as a
Defendant’s case that has evolved over the years

since Defendant’s Judgment and Sentence;

relating back to that earlier time.
3d 945 (Fla. 3rd DCA 2000) the court held that due to the
In Benjamin v. State, 20 So.
trial court had jurisdiction to hear defendant’s successive motion for
severity of the sentence, the

2

post-conviction relief; based upon manifest injustice grounds recognized
as an exception to
procedural bars Bra. would nomndly be applied to the court’s jurisdiction, including the doctrine
of collateral estoppel:

££*££Benr° hat

*^enty oJ th® sentence, this case fits squarely within the ^SSstStice'

datra was previously denied and affimted on appeal

SfSL'Stw
°°Urt iS C°mpeIled to c0Irect a ”"*** master U at
946. [Italics added] (e.g. severity of rantence exception to collateral estoppel
Similarly, defendants are permitted to file, and the
court has jurisdiction to hear,
successive Rule 3.800 post-conviction motions claitning illegality of sentence iraposed, provided
that defendant is not entitled to teliSgate >a specific issue that has already been decided onthg
moite". Garcia v. State, 69 So. 3d 1003,

1004 (Fla. 3rd DCA 201 l)(underline added). This

would include new issues based upon developing caselaw that did not
post-conviction motions filed on the same subject, but not the
petitions to correct illegal sentences may be filed "at any time".

exist at die time of prior

same specific issue, because

See Garcia.

This Court has jurisdiction to hear defendant’s illegal sentence post-conviction motion
either as a Rule 3.800 Fla. R. Crim. P. petition, a Rule 3.850 Fla. R. Crim. P. petition,
or as a
habeas corpus petition. See Brinson
v. State, 995 So. 2d 1047, 1048 (Fla. 2nd DCA 2008)("See
m>ka v. State, 872 So.2d 285, 286 (Fla. 2- DCA 2004) (holding that
habeas corpus that raises a claim of illegal sentence should be treated

3

a petition for writ of

as a motion filed pursuant

to rule 3.800(a)); better v. State, 965 So.2d 1281 (Fla. 2d DCA 2007) (reversing the denial of a
rule 3.800(a) motion in which the petitioner challenged his prison releasee reoffender (PRR)
designation on his conviction for BOLEO).") Brinson at 1048.
Similarly, this Court has jurisdictional authority to treat a habeas corpus petition as
petition filed pursuant to rule 3.850, in order to keep jurisdiction and to adjudicate the petition on
the merits. This Court has jurisdiction to

adjudicate Defendant’s habeas corpus petition,

regardless of where Defendant is currently housed, because Defendant’s case was fried in
Alachua County, Florida.
“ when a petitioner improperly seeks relief under section 79.01, [merely became

as a rule 3.850 motion because Mr. Clough was mcarcerated in Gulf County and
the claims raised in the petition collaterally attack his comnchon and «nteme_
See Valdez-Garcia, 965 So.2d at 322.” Clough v. State, 136 So. ?<* 6*°’
/pia 2nd DCA 2014), citing Valdez-Garcia v. State, 965 So.2d 318, 421 zz
S; 2nd DCA 2007); ffhtttv. State, 985 So.2d 21, 22 (Fla. 2nd DCA 2008);
and Curtis v. State, 870 So.2d 186,186 (Fla. 2nd DCA 2004).
Clough is cited as

authority for the proposition that it is no longer imperative for this

Court to first determine whether a Claim fits squarely within a Rule 3.800, Rule 3.850 or habeas
lot. This Court has jurisdictional authority to adjudicate all of those categories of
corpus petition s
claims on the merits, regardless of their label. This Court also maintains jurisdiction to adjudicate
all of Defendant’s manifest injustice claims not previously adjudicated on the merits, regardless
of whether, this Court deems an individual claim or claims to be successive claims or not;
especially based upon the severity of sentence imposed recognized exception to collateral

4

estoppel, which is codified in Rule 3.850(h)(2) Fla R. Crim. P. (2019). Benjamin,

supra.

Defendant contends that where the trial court commits fundamental error, or reversible
error, highlighted by defense counsel’s failure to move for judgment of acquittal, object, preserve
a respective issue for direct appeal, or otherwise make

record, directly prejudicing Defendant,

that manifest injustice has occurred. Thia court has jurisdiction to adjudicate Defendant’s claims
now on the mails, as opposed to denying the filing as successive, in order to correct

errors

constituting a manifest injustice. Defendant contends that claims not resolved on the mails are
not successive, and are not time baited, pursuant to manifest injustice caselaw.
JUDICIAL NOTICE OF COURT FTLF.S REOIJF,STFT>
Defendant requests that this Court take judicial notice of the

Clerk’s files in the

above-styled case, including, but not limited to, the administrative sections of those files pursuant
to Sections 90.201-203, Fla.Stat.
RULE 3.850 (2018) PROCEDURAL REQUIR F.lVfFTVTS
Grounds and Time Limitations
Defendant states that his Judgment and Sentence to Life in Florida State Prison, is
contrary to the constitution and laws of the United States and State of Florida,

and is otherwise

subject to collateral attack. Although Defendant has been in custody for over 31 y
ears now, only
one aUbi defense claim has been adjudicated by this Court on the merits. [Attachment 18]
The fects upon which Defendant’s Claims below a« predicated, in combination with
related fundamental constitutional rights asserted, fundamental

error of the trial court, other

claimed ineffective assistance of defense counsel in plea negotiations, trial preparation, trial,

5

post-trial, and sentencing, and/or fundamental and/or reversible errors not objected to by trial
counsel, were not reasonably ascertainable with the exercise of due diligence by Defendant eilher
before, during, of

after trial. Defendant has never previously had the benefit of meaningful

post-conviction counsel. Defendant’s main 1991-1998 post-conviction motions were pro se and
were summarily Denied by this Court in short order fashion, infra, statement of the case.
It is wholly

irrelevant whether Defendant’s Claims below are made in a 3.800 Motion, a

3.850 Motion, or a Habeas Corpus Petition, and/or whether they are successive or not. The
current Circuit Courts in Florida strive to answer the question whether new claims made are
meritorious, and whether those meritorious claims demand relief on manifest injustice grounds to
correct ANY manifest injustice of the past. The idea is justice. Many Florida Courts still depict a
sign in the courtroom that reads: “We who labor here seek only the truth”.
Statement of The Case
Defendant’s Trial
Roosevelt Johnson was bom on October 24, 1961. Johnson was charged by Amended
Information with: Count 1: Robbery Firearm; Count 2: Kidnapping Firearm; and Counts 3-5:
Sexual Battery Firearm. [Attachment 2\ pps. 6-7] Johnson pled not guilty to all the charges.
Johnson was convicted on all four counts on January 27, 1989 [Attachment 7, pps. 104-106] and
was sentenced to life imprisonment x5. [Attachment 9, pps. 108-115] The case was presided over
by the Honorable Robert P. Cates, Circuit Court Judge, Eighth Judicial Circuit of Florida. The
epresented by ASA Carlin. Johnson was represented by Craig DeThomasis, Esquire.
State was r
References are made to PDF paginated pages in Appendix 1 hereto. Individual page numbers shallde^te the
ROA page number and/or trial transcript page number, from which the Appendix 1 attachments were excerp .
See detailed description of Appendix 1 Attachments in the Statement Of Facts section, infra.

6

Defendant’s Direct Appeal
Defendant appealed his trial convictions on the sole issue that the photo lineup was
impermissibly suggestive and not supportive of the victims later ‘Very certain” in court
identification of Defendant at trial. The First DCA found no substantial likelihood of
misidentification, because the victim saw her assailant face-to-face at the time of the crime,

and

Affirmed. Johnson v. State, 571 So. 2d 58 (Fla. 1st DCA 1991).
Defendant’s 1991-1998 Continuing Post-Conviction Motion
On November 1, 1991, Johnson filed a Pro Se Motion for Post-Conviction Relief,
pursuant to Rule 3.850 Fla. R. Crim. P. (R. 179-85) listing two grounds: 1.) Failure of trial
counsel to move to suppress, or object to at trial, the impermissibly suggestive photo lineup
entered into evidence; and 2.) Failure of trial counsel to call alibi witnesses Keith Mobley and
Defendant’s girlfriend “Emabelle” who would have testified that Defendant was at a different
hotel at the time of these crimes. [DE 91][Attachment 13, pps. 124-130]
On November 7, 1991, the trial court Denied, Defendant’s impermissibly suggestive
photo lineup claim2, but issued a Rule to Show Cause to the State regarding Defendant’s claim 2
alibi defense claim. (R. 186-873). [DE 92-95] Defendant appealed the partial denial on December
10,1991 [DE 96-97], that was Denied by the First DCA on February 6, 1992. [DE 104-105] The
State responded to the show cause order on January 31,1992. [DE 103]
After a short succession of attorneys refusing Defendant’s case, the court ultimately

The Court noted that the First DCA had just decided the photo lineup issue on his direct appeal.
1 j Ce.?T
ftctUal references a"5 made directly to Defendant’s 3.850 Record On Appeal (“ROA”)
filed with the Cleric Of Courts, without separate Appendix 1 references or attanhwimt hereto.

7

appointed Tom Copeland, Esquire, as a Special Public Defender on February 8, 1993. [DE
124-125] (R. 198-200). Next, there was a five-year lapse with no substantive court hearings. On
December 29, 1997, Defendant’s post-conviction counsel filed

“Motion for Entry of Order

Requiring the Preservation of Evidence” [DE 161-162]; that was subsequently Denied on May
12,1998. [DE 166-167]

On July 27,1998 an evidentiary hearing was set for August 28,1998.

After the hearing date was scheduled, Defendant filed one supplement and one more
3.850 motion directly with the Clerk, adding new claims for relief, that were not officially
signed4 by post-conviction counsel Tom Copeland and do not bear his signature, infra. It does not
appear that any motion to amend Defendant’s initial November 4, 1991 3.850 Motion was filed
with the Court
On August 5, 1998, Johnson filed a Pro Se Supplement5 To Motion for Post-Conviction
Relief. [DE 172] (R. 226-227) [Attachment 13, pps. 131-132] This Supplement listed additional
ineffective assistance of counsel claims: 1.) Failure of defense counsel to advise Defendant of his
right to: i.) testify at trial in his own defense, ii.) to participate decision making regarding
evidence to present to the jury, or iii.) to participate in formulation of a defense strategy, 2.)
Failure of defense counsel to present defense witnesses regarding: i.) the source of the coins, n.)
the source of the trash can, iii.) a witness who saw a different suspect in the area, iv.) a witness
saw a female clerk in the office at the time of the offense, v.) regarding victim’s examination

4
Although not officially signed by post conviction counsel, counsel prepared these claims with witness
testimony and other evidence for evidentiary hearing scheduled for August 28, 1998, infra. [Attachments 14,16-17]
5
Instead of listing these new claims as additional new claims, Defendant listed these claims as “supplements to
paragraph 14 of Defendant initial 1991 Pro Se 3.850 filing. This filing is time stamped August 5,1998, but appears
in tiie Clerk’s docket as filed on July 31,1998.

8

where no serological or hair evidence of sexual battery was found, vi.) whether a trash
missing from Econo Lodge Room 213, vii.) whether Red Carpet Inn used the

can was

same type of trash

can as Econo Lodge, viii.) that defendant was not ‘Veil spoken” as described by the victim, and
ix.) that defendant had [6] gold teeth and tattoos on the date of the offense; 3.) Failure of defense
counsel to request a forensic examination of the clothing of both the victim and Defendant,
which were both in police evidence; 4.) Failure of defense counsel to take depositions from
present testimony regarding: i.) the officer whose notes included victim’s description

and

of the

assailant, conflicting with the written police report, ii.) the officer who talked with a witness who
saw another potential suspect in the area at the time of the offense, and Hi.) the officer who talked
with a witness who saw a female clerk in the office at the time of the offenses. Id.

at pps.

131-132.
Then again, four days prior to the scheduled hearing on August 28,
1998, Johnson filed

1998, on August 24,

Pro Se “Motion for Post-Conviction Relief-Brady Violation”. [DE

174] (R 228-234) [Ateachment 13, pps. 133-138], The Brady violation claimed related to the
Mure of the prosecution to disclose evidence favorable to Defendant, including, Detective Fem
Nix’s notes that the victim could not identify the assailant’s clothing; portions of Nix’s notes
related thereto given to the defense were incomplete, as favorable to Defendant
On August 28, 1998, post conviction counsel Tom Copeland, provided the Court with
“Defendant’s Offer Of Proof Pursuant To Florida Statute

§ 90.104(l)(b) In Support Of

Defendant’s Motion For Post-Conviction Relief56. [Attachment

16, pps. 143-148] This filing

emaL In other words, it was filed by the Court as an attachment, not by Copeland.

9

appended to that

listed

probable testimony of thirteen (13) witnesses to be called by post conviction counsel at

Defendant’s August 28, 1998 scheduled hearing in support of Defendant’s 1991 original 3.850
Motion alibi witness claim, as well as all of Defendant’s supplemental claims made in August,
1998, prior to the scheduled hearing. The hearing was conducted on August 28,1998, however,
Defendant was only permitted to present evidence in support of the alibi defense claim; the single
issue that the Court issued a Rule To Show Cause ordering the State to respond withing 45 days
of November 7,1991. (R. 514-597) [Attachment 18]
On September 14, 1998, post conviction counsel Tom Copeland, filed “Defendant’s
Memorandum Of Law In Support Of Defendant’s Right To Supplement Defendant’s Motion For
Post Conviction Relief’ [Attachment 17 149-153], regarding the Court’s decision on August 28,
1998 to not permit Defendant’s supplemental filings post November 4, 1991, or any of the
witness testimony or

other evidence prepared by post conviction counsel Tom Copeland

specifically for the August 28,1998 hearing scheduled. [DE177-178] (R. 254-258)
“At the hearing held on Defendant’s Motion for Post Conviction Relief held on
August 28, 1998, this Court refused to consider the Supplement, or allow toe
introduction of evidence concerning it. The Court did accept Defendant’s written
Offer Of Proof and agreed to consider a memorandum in support of Defendant s
right to supplement his original Motion for Post Conviction Relief.” Id.
.
,
On April 21, 1999, toe Honorable Stan R. Morris, entered an order Denying Johnsons
Motion for Post-Conviction Relief, denying toe initial alibi defense claim on toe merits, and
finding the supplement and second motion untimely filed. (R- 263-278) [Attachment 18, pps.
154-170]. On May 12,1999, Johnson filed a Motion for Rehearing (R. 353-355), that was denied
on

May 26, 1999. (R. 358). Much of this Order, in so many words, explained toe Court’s

rationale in explaining all of toe specific reasons why post conviction counsel Tom Copeland

10

was an inept7 post conviction counsel. Id. Although Copeland did not endorse these filingsperse
as they do not bear his signature, Copeland was prepared to litigate all of Defendant's

claims and

supplemental claims at the August 28, 1998 evidentiaiy hearing.
Johnson appealed to the First District Court of Appeals. [DE 200] (R. 360). On January
12, 2001, the 1st DCA Per Curiam Affirmed

the trial court’s Denial of Motion(s)

for

Post-Conviction Relief. Johnson v. State’ 780 So 2d 65 (Fla- 1st DCA Jan. 12, 2001). Mandate
filed February 1,2001. [DE 227]
Motion Correct Illegal Sentence and Motion For Post Conviction DNA Testing
On August 16, 2001 Defendant filed

Pro Se Motion To Correct Illegal Sentence. [DE

231] that was Denied [DE 234], appealed [DE 239] and Affirmed with Mandate issued

on July

11,2002. [DE 243-244]
On September 30, 2003 Defendant filed a “
Motion For Post Conviction DNA Testing”
[DE 246] On February 26, 2004 the Court issued

an Order requiring the State to respond. [DE

250] On September 29,2004 a hearing was conducted where the Court found that the evidence
could not be produced for DNA testing [DE 273-274] On January 24, 2005 the Court Denied
Defendant's Motion For Post Conviction DNA Testing, and found that the

sexual assault kit used

1991 3.850 filing. See infra, Defendant’s April 2008 P^titimvSWrit SnSt D‘5ndant’1f
Belated Post-Conviction Motion, filed by attorney Marcia J. Silvers, Esquire.

11

^

November 4,
Leave To Fl,e A

on victim D.P. was either lost or destroyed on or

after January 18, 1989s. [DE 285] [Attachment

19, pps. 171-173]
Defendant’s 2005-2006 Pro Se Post Conviction Motions
On September 28, 2005, Johnson filed a
Motio

successive Pro Se Rule 3.850 Fla. R. Crim. P.

n, claiming tot Ma judgment and sentence was unlawful, because the State had either lost

or destroyed, in bad faith’, the sexual assault kit and DNA evidence pertaining to rape
victim D.P. [DE 290-292] The Pro Se

Motion was Denied on February 28, 2006 (as filed March

2,2006). [Attachment 19, pps. 171-173] [DE 293-294] An appeal was filed [PE 297-298] that
was Affirmed with Mandate issued on August 18,2006. [DE 309-310]
On My 19, 2006, Johnson filed a successive Pro Se Rule 3.850 Fla. R. Crim. P. Motion
for Post-Conviction Relief based on newly
discovered evidence by virtue of the

discovered evidence. Johnson claimed newly

^handling, loss, or destruction of the sexual assault kit of

victim D.P. by the State. [DE 305] that was

Denied on November 2, 2006. [DE 314] Defendant

Affirmed with Mandate issued on June 6,
appealed on November 30, 2006 [DE 319] that was
2007. [DE 323]
Motion for Post-Conviction Relief,
Thereafter, on February 17, 2011, Johnson filed a
pursuant to Rule 3.800 Fla.R.Crim.P

. Johnson’s Motion was Denied on February 21, 2011. On

irrelevant to the Brady violation now claimed below, see Claim 2, mlra.
9 Defendant Pro Se never
sexual assault kit prior to Defendant’s
Petition/Motion.

12

March 9, 2011 Defendant appealed th

e court’s Denial that was Affirmed with Mandate issued on

July 14, 2011. On June 27,2011 Defendant filed a Motion For Public Records that was Denied
on Jully5,2011.
On October 14,2013, Johnson filed a Pro Se Motion To Conect Illegal Sentence that was
Denied on October 18, 2013. On Oetober 28, 20!3, Johnson filed a Motion For Enlargement Of
Time that was Denied on October 31, 2013.

On November 4,2013 a Motion For Rehearing was

filed that was Denied on November 6, 2013.
On February 18,2014 Johnson filed a Pm Se Motion For Post Conviefion Relief
, Denied
on February 20, 2014, Appealed on March 21 2014,
ond Affirmed with Mandate issued on
September 16,2014.
There have been no other substantive defense filings in the above styled

case since 2014.

Ancillary Case Number - Extraordinary Writ Alachua County
On April 29, 2008, Defendant filed a Petition For Writ Of Habeas coipus For Leave To
File A Belated Post Conviction Motion, through counsel Marc,a J. Stivers in fire above styled
case, that was assigned Case No.: 01 2008-CA-001969 by the Clerk Of Courts. [Attachment 20,
pps. 174-196] The basis of that Writ was the failure

of two prior post conviction counsels, prior

to Tom Copeland’s appointment to timely file supplements requested by Defendant The
Court conducted an evidentiary hearing on December 19, 2008 and ultimately Denied the Writ
on December 22, 2008, finding that Defendant’s claims were
received from post conviction counsels, appointed prior

unsupported by trial testimony

to Copeland. [Attachment 21, pps.
197-200] Defendant appealed on January 9, 2009 through counsel, that
was Affirmed on May

13

25,2010 with Mandate issued on June 7,2010.
Certification Statement
reads the English language and Certifies [at to end of to instant
Defendant speaks and
Motion/Petition to. Defendant has personally read, to Motion/Petition and understood it's
content, that to Motion/Petition is filed in good faith, with reasonable belief that it is timely
filed, as excepted by the rules
merit, does

of criminal procedure and manifest injustice Florida caselaw, has

not duplicate previous motions/Petitions that have been adjudicated by this Court on

the merits, and that to feels contained In to Motion/Petition are true and eomecL
-TTTRISDICTION and standard of review
This court has jurisdiction to review Roosevelt Johnson's post-conviction churns based
., and/or based upon habeas corpus grounds. Additionally,
upon Rule 3.850 Fla. R. Crim. P
14th Amendment claims. Specifically, Defendant lodges 6th
Defendant raises 5th, 6th, and
d 5th Amendment due process claims,
Amendment ineffective assistance of counsel claims, an
each applicable to the

State of Florid, pursuant to to 14th Amendment to to United States

as filed either under a
Constitution. This Court has jurisdiction on manifest injustice grounds
3.800 motion [or successive 3.800
Rule 3.850 motion [or successive 3.850 motion], or as a
rpus petition [or successive habeas corpus petition] . The
motion], or as filed as a habeas co
not duplicitous of any other claims made by Defendant in the past. No
claims made below are
court has addressed in good faith the Claims made below on the merits.
Defendant’s conviction, judgment and sentence

in this case, under the specific facts

presented and in conjunction with related ancillary fundamental errors in trial, demand that

14

Defendant’s Judgment and Sentence be Vacated

now and remanded for a new trial.

Due Process
The Fifth Amendment to the United States Constitution pmvides that

no person shall be

deprived of life, liberty, or property without due process of law. U.S. Const. Amend. V.
The
Fourteenth Amendment declares that no state shall deprive
any person of life, liberty, or property
without due process of law. U.S. Const Amend,

XIV, § 1. The Florida Constitution also

provides that no person shall be deprived of life, liberty,

or property without due process of law.

Art. I, § 9, Fla Const. Thus, the right to due process is conferred

not by legislative grace, but by

constitutional guarantee. Beary v. Johnson, 872 So.2d 943 (Fla 5th DCA 2004).
Ineffective Assistance of Counsel
The United States Constitution
protects the right of an accused to have the effective
assistance of counsel. U.S. Const. Am. VI; Const. 1963,

Art. 1, § 20. Individuals accused under

Florida law have a corresponding Florida Constitutional rights to effective counsel at all

stages of

the proceedings. Fla Const Art. 1 § 16. The right to have the assistance of a lawyer is a
fcndamental component of our criminal justice system: "Their presence is essential because they
are the means through which the other rights of the person on trial are secured."

United States v.
Crontc, 648,104 S.Ct 2039 (1984)." That a person who happens to be a lawyer is present a, trial
alongside the accused, however," is not enough to guarantee the right; this is b
"envisions counsel’s playing a role that is critical

ecause the right

to the ability of the adversarial system to

produce just results." Strickland v Washington, 466 U.S. 688,104 S.Ct 2052, 80 L.Ed.2d 674,
685 (m4)' F°r •ha‘ re“0n’li*h* to “>unsel includes the right to the effective assistance of

15

counsel. Id. at 686. Ural is, an accused is "entitled to be assisted by an attorney, whether retained
or appointed, who plays the role necessary to ensure that the trial is fan- ." Id. at 685 (emphasis
added). Where an accused's counsel's conduct "so undermined the proper functioning of the
adversarial process that the trial cannot be relied on as having produced a just result," the accused
has not received the effective assistance of counsel. Id. at 686.
HabeasCorpus
hr Quarles v. State, 56 So.3d 857, 858 (Fla. 1st DCA App. 2011) The 1“ DCA stated:
•the rules of procedure applicable to petitions for the extraordinary writ of habeas con>us are set
out in Chapter 79, Florida Statutes, and rule 1.630, Florida Rules of Civil Procedure.” See also
Bardv. Wolson,

687 So.2d 254 (Fla. 1st DCA 1996). If the complaint states prima facie grounds

for relief, die trial court must issue the writ, requiring a response

from the detaining authority. §

79.01, Fla. Stat.; Fla. R. Civ. P. 1.630(d)(5).
Furthermore, the court determined that “[i]n order to state a prima facie ease for a writ of
habeas corpus, the complaint must allege: 1) that the petitioner is currently detained in custody,
and show 2) “by affidavit or evidence pmbable cause to believe that he or she is detained without
lawful authority.” § 79.01

, Fla. StaL See also Smith v. Kearney, 802 So.2d 387, 389 (Fla 4th

DCA 2001) (“To show a prima facie entitlement to habeas relief, the petitioner must show that
he is unlawfully deprived of his liberty and is illegally detained against his will.’”).
This Court has jurisdictional authority to hear and adjudicate on the merits, any claim
filed by Defendant below that is subsequently deemed by this Court to fit into the categmy of a
habeas corpus claim, notwithstanding that Defendant is currently housed in Century Correctional

16

Institution, Escambia County, Florida, and not in Alach
ua County, Florida. Clough, supra.
Manifest Injustice
According to State v. Akins, 69 So.3d 261 (Fla. 2011), [ujnder Florida law,

appellate

courts have "the power to reconsider and

correct eironeous rulings [made in earlier appeals] in
exceptional circumstances and where reliance on
the previous decision would result in manifest
injustice." Muehleman v. State, 3 So.3d 1149, 1165 (Fla. 2009) (alteration i
in original)
(recognizing this Court's authority to revisit a prior ruling if that rulin
g was erroneous) (quoting
Parker v. State, 873 So.2d 270, 278 (Fla. 2004)); [a]n illegal
sentence is "one that imposes a
punishment or penalty that no judge under the
entire body of sentencing statutes and laws could
impose under any set of factual circumstances."
Williams v. State, 957 So.2d 600, 602 (Fla.
2007); see also State v. McBride, 848 So.2d 287, 289 (Fla. 2003);
see State v. J.P., 907 So.2d
1101, 1121 (Fla. 2004) (same); Parker v. State,
873 So.2d 270, 278 (Fla. 2004) (same); see also
Fla. Dep't ofTransp. v. Juliano, 801 So.2d 101,
106 (Fla. 2001) (”[A]n appellate court has the
power to reconsider and co
meet an erroneous ruling that has become the law of the case where a
pnor ruling would result in a 'manifest injustice

. (quoting Strazzulla v. Hendrick, 177 So.2d 1, 3

(Fla. 1965))).

STATEMENT OF FACTS Alun I.EGAI. AHGTlMuiwrc
A flout desk clerk at the Econo Lodge motel in Gainesville, FI
orida, State’s Victim D.P10
(hereinafter "D.P."), testified that shortly before 9.00
a.m. on July 9, 1998, a large black male

17

walked

into the lobby area of the Econo Lodge and rapidly approached her. When D.P. asked,
jumped over the counter and pushed a gun into her back, telling her

"May I help you?" the man
not to make any noise. He

forced her to put all the money firm foe cash drawer mto a bag. She
ami some dollar bills totaling $202.00. He then demanded that she

gave him six rolls of coins
She complied and, in the room, he sexually assaulted her . After
take him to an unoccupied room.
dmssed, he tied her up withascarf on foe bed and left. After the man left the mom , D.P.
getting
broke free and called the police. (T. 76-112n)
The entire incident lasted about fifteen (15) minutes. (T. 87) While D.P. and the man
were inside the unoccupied room, D.P. never got a good look at the man's face. (T. 104) The only
time she saw the man was at the point o

f initial contact when he rapidly approached her in the

lobby, and this initial contact was only a few

seconds. After he point the gun at her in the lobby,

she testified that she never saw his face again. (T. 102)
ejaculated when he sexually assaulted her. Based
D.P. told the police that the man never
S' initial investigation at foe motel, foe police were looking for a black male
on the police officer
in a green Cadillac. (T. 29)
Approximately five (5) hours after D.P

. called the police, Johnson was arrested after he

traffic infraction by a deputy sheriff of the Alachua County
was stopped in a blue Hyundai for
(T. 45) During the traffic stop, the Deputy noticed that Johnson had a gun
Sheriffs Department,
e and both he and his vehicle were
inside his vehicle. Johnson was arrested on a weapons charg
taken into custody. A search warrant was later obtained

. Several rolls of coins were found on the

“T. 76-112" references those respective pages of the

18

floorboard of the car driven by Johnson along with a Rubbennaid trash

can, which although

was similar to those used in rooms at the Econo Lodge motel, could also be found anywhere. (T.
48, 150-51) The blue Hyundai was owned by someone other than Johnson. (T. 58)

Five (5) days after the alleged sexual assault of D.P., at a photographic lineup of seven
black males including Johnson was conducted, D.P.

was unable to identify Johnson. A detective

testified that D.P. appeared to be shaken by Johnson's photograph but she told the detective that
she could not identify him as the perpetrator of the crime. (T. 34-35) [see also Attachment 1,

pps.

3-5]
Notably, Johnson had stayed at the Econo Lodge several times prior to the alleged sexual
assault. D.P. herself had previously check him in on June 6, 1988, only one month before the
alleged sexual assault occurred. (T. 89) The detective who conducted the photo lineup
at the time of this photographic lineup that Johnson had previously been

was aware

a guest at the Econo

Lodge motel and D.P. had personally checked him in as a guest there. (T. 38) None of the other
individuals whose pictures were shown to D.P. had ever had any previous contact with D.P..
Evelyn Walker ("Walker"), a maid at the Econo Lodge, testified that she had

seen

Johnson when he stayed at the Econo Lodge on several occasrons before the alleged sexual
assault occurred. (T. 62) According to Walker, at about 8:45 a.m. on July 9, 1988, she saw
someone walking down the corridor of the motel by himself who she felt had been a guest there
before. (T. 71) After the crime, she was shown a photographic lineup and the only photograph in
the lineup that she recognized as being that of a prior guest at the Econo Lodge was that of
Johnson. She then identified Johnson as the person she had seen in the motel corridor on July 9,

19

i

1988. (T. 73,75)
Regina Davis ("Davis") and her sister, Rhotida Sheppard ("Sheppard"), testified that
they saw a blue Hyundai driven by a black male leaving the parking lot of the Econo Lodge
motel between 9:00 am and 9:15 am. on July 9,1988. Sheppard was unable to identify Johnson
as the person she saw in the blue Hyundai that day. In fact, in court, she identified a photograph
of a person other than Johnson as the person she saw in the blue Hyundai that day. (T. 118-121)
After the alleged sexual assault occurred, Davis and Sheppard spoke to the other maid, Walker,
and Walker told them she believed the man who used to stay as a guest at the motel in Room 119
was the man she saw in the motel corridor on July 9, 1988. (T. 68, 122, 132-134) Davis knew
Johnson as a guest who stayed at the motel in Room 119 on a prior occasion. She had become
friends with Mr. Johnson and had listened to music in his room before. (T. 130) She testified that
the man she saw in the blue Hyundai that morning was Johnson. (T. 126)
At trial, D.P. looked at Johnson, the only black man in the courtroom and identified him
as the man who assaulted hear six months earlier. This, despite the fact that she only saw him as
the man who assaulted her for a few seconds. This she did with undeniable help of an extremely
unfair show-up in the courtroom. (T. 88) Notably, at the pre-trial photographic lineup before D.P.
had an opportunity to talk to her co-workers at the Econo Lodge, she could not identify Johnson.
(T. 35-35)
Although multiple fingerprints were lifted from the room at the Econo Lodge where the
alleged sexual assault occurred, only one print was later readable, and did not match Johnson. (T.
198-199)

20

The day of the Econo Lodge robbeiy Johnson

was a guest at the Red Carpet Inn in

Gainesville where he was staying with his girlfriend. (T. 168-169, T. 174-175,

T. 177) It was also

undisputed that, at the time of the cri
crime was committed, Johnson had "numerous gold teeth in
ont of his mouth. (T. 169) Yet, D.P. testified she never saw any gold teeth in the mouth of
the person who assaulted her. (T. 106-107) D.P. described her assailant

as clean-shaven.

However, Johnson had a moustache and stubble on his fa
ce on July 9, 1988. (T. 109)
D.P. testified that the man who assaulted her wore a t-shirt so his arms
were exposed. She
further testified that she did not notice any tattoos
on his arms. (T. 106) At trial, the judge
refused to allow Johnson to remove his jacket

worn in court for the prior two days to display

Defendant’s tattoos to the jury. Johnson's attorney did not present any witnesses to testify

about

the tattoo and did not cross-examine the State's witnesses about th
e tattoo so the trial judge did
not permit him to mention Johnson’s tattoos in his closing argument, finding that there
was no
evidence of Defendant’s tattoos in evidence of record in the trial. (T. 215-222)
Defense counsel presented no defense witnesse

s, or defense evidence. (ROA 296)

Johnson was convicted on all counts on January 27, 1989. He
was sentenced to life
imprisonment. [Attachment 9] [Attachment 22]
Appendix 1 - Attachments 1-23
Appendix l12 - Attachments 1-23

are attached hereto and incorporated by specific

reference into the body of the instant Petition/Motion, as if fully set forth herein.

*» included in thie Appendix an directly wIic<*!?tXJS JteteL™
21

l”Wever’

cittd

PDF Pagination:

Attachment#:

Description Of Documents:

Attachment 1

Detective Fern Nix Supplemental Report

3-5

Attachment 2

Amended Information 1-24-1989

6-7

Attachment 3

State Witness Barbara Doran Trial Testimony

8-22

Attachment 4

Trial Transcripts Excerpts
ASA John C. Carlin Trial Closing Arguments

56-76

Attachment 5
Attachment 6

Jury Instructions Printed

77-103

Attachment 7

Verdict Forms

Attachment 8

Scoresheet

Attachment 9

Judgment & Sentence 1-27-1989

23-55

104-106
107
108-115

116-119

Attachment lOFloridaMotel 2603 SW 13 Street, Gainesville

120-122

Attachment 11 Clerk Docket Case 01 1988 CF 2935

123

Attachment 12ASA John C. Carlin Memorandum 8-12-1988

124-138

Attachment 13Defendant’s 1991-1998 Post Conviction Filings
Attachment MDefendant's 1997 Motion To Preserve Evidence

139-141

Attachment 15 Order Denying Motion Preserve Evidence

142

Attachment 16Defendant’s Offer Of Proof Evidentiary Hearing

143-148

Attachment 17 Defendant’s Memo Of Law Right To Supplement

149-153

Attachment ISOrder Denying 1991-1998 Post Conviction Relief 154-170
Attachment 190rder Denying Post Conviction DNA Testing

22

171-173

Attachment 20Petition For Writ Habeas Corpus 4-18-2008
Attachment 21 Order Denying Petition For Writ Habeas C

174-196

oipus

197-200

Attachment 22Roosevelt Johnson DOC Location 2-24-2019

201-203

Attachment 23 Clark Docket Case 01 1988 CF 3205 A

204-211

JBs«EgiSggBfaMMaa
WOULD HAVE BEEN DIFFERENT

Standard for Ineffective Assistance
The Sixth Amendment provides that ”[i]n all criminal prosecutions,
enjoy the right . . . to have the Assistance of Counsel for his defense."
Amendment VI. The Supreme Court teaches us that the criminal defend
the right to the effective assistance of counsel."

die accused shall
U.S. Constitution

ant's right to counsel "is

United States v. Gonzalez-Lopez, 548 U.S. 140,

147, 126 S.Ct. 2557, 165 L.Ed.2d 409 (2006) (emphasis added) (Page 1228 internal quotation
marks & citation omitted). The right to effective assistance of counsel "is recognized not for its
own sake, but because of the effect it has
on the ability of the accused to receive a fair trial."
United States v. Cronic, 466 U.S. 648,658, 104 S.Ct. 2039, 80 L.Ed.2d 657 (1984).
Under die dictates of Strickland v Washington, 466 U.S.

688,104 S.Ct 2052, 80 L.Ed.2d

674 (1984), a defendant is entided to effective assistance of counsel which conforms
with
community standards. In Strickland, the United States Supreme Court promulgated a two-prong
test outlining the standard for judging ineffective assistance of

counsel claims. Specifically,

counsel is ineffective when: 1) his or her representation falls below

an objective standard of

reasonableness, and 2) but for the defici ency in representation, there is a reasonable probability
23

that the result of the proceeding would have been different. Id. at 687.
Roosevelt Johnson

asserts that his trial counsel’s preparation and performance before and

after trial fell below an objective standard of reasonableness. There is

reasonable probability

that, but for counsel's errors, the result of the proceedings would have been different
A "reasonable probability" is defined as "a probabrlity sufficient to undennine confidence
in the outcome." Id. at 694.

Based upon the facts of this case, Johnson’s claims exceed the

"probability sufficient to undermine confidence in the outcome" standard.
To substantiate the first prong, the defendant must prove that his counsel's representation
was objectively

unreasonable and that the alleged deficiency was not sound strategy. Strickland,

supra; Darden v. United States, 708
presumption that a particular act
not insurmountable. See, e.g.

F.3d 1225 (11th Cir. 2012). Although there is a strong

or omission constitutes sound trial strategy, this presumption is

, Nixon v. Newsome. 888 F.2d 112,115 (11th Cir. 1989); Chatom v.

White, 858 F. 2d 1479, 1485 (11th Cir. 1988); Code v. Montgomery
Cir. 1986). The mere incantation of the word "strategy

, 799 F.2d 1481,1484 (11th

" does not insulate attorney behavior from

review. The attorney’s choice of strategy must be reasonable under the totality of the
circumstances. Cave v. Single,ary. 971 F.2d 1513,1518 (11th Cir. 1992).
Ineffective assistance may consist of a variety of acts and omissions. It may consist of a
variety of different errors, including failing to
Holsomback v. White

conduct adequate pretrial investigation. See

, 133 F.3d 1382 (11th Cir. 1998); Code v. Montgomery, 799 F.2d 1481,

1483-84 (11th Cir. 1986); Nealy v.

Cabana, 1(A F.2d 1173, 1177-78 (5th Cir. 1985). Counsel

may be ineffective for failing to move to suppress

24

statements or evidence obtained in violation of

a defendant’s constitutional rights. See Huyne v. King, 95 F.3d 1052, 1057-58 (11th Cir. 1996);
Smith v. Dugger, 911 F.2d 494, 497-98 (11th Cir. 1990). Counsel may also commit Ineffective
Assistance of Counsel during the plea-bargaining process. See Lafler v. Cooper, 132 S.Ct. 1376,
1387 (2012); Missouri v. Frye, 132 S.Ct 1399 (U.S. 2012).
Roosevelt Johnson's defense counsel never competently explained the plea offer or the
ramifications thereof to Johnson, or the strengths and weaknesses of the State’s case, or the fact
that defense counsel had prepared no defense case whatsoever. Johnson was never advised that
the State was seeking life in prison for Johnson, if convicted. Defense counsel received various
offers from the State to resolve Johnson’s case, yet failed to present them Johnson or advise
Johnson of the ramifications of not considering a plea offer.
Counsel can be ineffective for failing to impeach an important prosecution witness, see,
e.g., Nixon v. Newsome, 888 F.2d 112 (11th Cir. 1989); Blackburn v. Foltz, 828 F.2d 1177,
1183-4 (6th Cir. 1987), or for failing to present exculpatory evidence or witnesses. See Nealy v.
Cabana, 764 F. 2d 1173, 1177-78 (5th Cir. 1985). Counsel also may be constitutionally
ineffective for refusing to call a defendant to the stand contrary to his wishes. United States v.
Teague, 953 F.2d 1525 (11th Cir. 1992) (en banc). This is only a sampling of the variety of errors
which the coprts have deemed constitutionally ineffective assistance of counsel.
Once ineffective assistance of counsel is established, the courts turn to the "prejudice
prong" of Strickland. To establish prejudice, the defendant need only show that there is a
reasonable probability that, but for counsel's unprofessional errors, the result of the proceeding
would have been different. A reasonable probability is a probability sufficient to undermine

25

confidence in the outcome of the case. Strickland, 466 U.S. at 687; King v. Strickland, 748 F. 2d
1462,1463 (11th Cir. 1984).
In Murray v Carrier, 477 U.S. 478, 106 S.Ct. 2639, 91 L.Ed.2d 397 (1986), the United
States Supreme Court held that even a single error may constitute ineffective assistance of
counsel if that error is egregious enough* Also see Cuyler v Sullivan, 446 U.S. 335, 100 S.Ct.
1708, 64 L.Ed.2d 333 (1980).
Here, the errors, singularly and cumulatively warrant an evidentiary hearing and
ultimately a new trial. Based upon the foregoing a new trial is warranted or, at a minimum, an
evidentiary hearing is required.
Roosevelt Johnson’s Conviction and Life Sentence Presents A Manifest Injustice
Johnson claims meet the "manifest injustice exception" to Rule 3.850, Fla.R.Crim.P.
Specifically, manifest injustice claims are viewed without applying a strict two (2) year limitation
period for filling a Motion for Post-Conviction Relief, or denial based solely upon collateral
estoppel grounds, which are now an exception to this Court’s continuing jurisdiction. Historically
in Florida, successive motions including untimely post-conviction motions, were previously
barred under Rule 3.850(h), as not meeting jurisdictional requirements of the court. Johnson
claims that a true manifest injustice occurred in his case, in violation of Johnson's 5th, 6th, and
14th Amendment rights under the United States Constitution and applicable provisions of the
Florida Constitution, and that this Court should take jurisdiction to adjudicate Johnson’s claims
below on the merits now for the first time since 1989.
Courts have held that the law of the case doctrine will not bar relief in a post-conviction

26
I
i

rule 3.800(a) motion seeking to correct an illegal sentence that otherwise

constituted a manifest

injustice. See Lawton V. Stale, 731 So.2d 60, 61 (Fla. 2ndDCA 1999). Even the writ of habeas
Capas can occasionally be employed to obtain release from a sentence that results in a
injustice. See Haager v. Stale, 36 So.3d 883, 884-85 (Fla 2nd DCA 2010) (exercising the court's
inherent authority to grant a writ of habeas corpus to provide relief on

a claim raised in a rule

3.800(a) motion, which would have otherwise been barred by the law of the case doctrine, to
prevent a manifest injustice from occurring); see also Figueroa v. State, 84 So.3d 1158, 1162
(Fla. 2nd DCA 2012) (holding that relief may be provided to prevent a manifest injustice "

in the

exercise of this court's inherent authority to grant a writ a habeas corpus").
However, "appellate courts have 'the power to reconsider and correct erroneous rulings
[made m earlier appeals] in exceptional circumstances and where reliance on the previous
decision would result in manifest injustice.'" State v. Akins,

69 So.3d 261 (Fla. 2011) (citing

Muehlemm v. State, 3 So.3d 1149, 1165 (Fla. 2009)). Manifest injustice would resarit if relief is
not granted in this case. Coleman v. State, 128 So.3d 193 (Fla. 5th DCA 2013).
The manifest justice exception calls for this Court to grant Johnson the relief requested
due to counsel's repeated lapses in judgment throughout trial.

Johnson was facing a maximum

sentence of life imprisonment He State initially offered a plea of seventeen (17) yearn with a six
(6) year minimum mandatory. Then, the State offered

plea offer of twelve (12) years with a

three (3) year minimum mandatory. Defense Counsel did not relay the plea offers to Johnson so
that he could make a decision as to how to he wanted to proceed. If Johnson had known the true
and correct penalty he faced and been adequately apprised of the testimony and evidence against

27

him, he would have entered a guilty plea to the charge in exchange for a twelve (12) year
sentence . Johnson should be released immediately under a'twelve (12) year sentence

. The State’s

twelve (12) year plea offer that was never communicated to Roosevelt Johnson, in consideration
ofthesp

ecific heinous facts of this case, is in itself a true manifest injustice for which Johnson is

constitutionally afforded relief under the dictates of Strickland.
Here, an

evidentiary hearing is required to resolve the conflict in the facts surrounding

Johnson's dub™ of ineffective assistance of counsel; as well as in the interests of justice. The
factual controversies in Johnson’s ease require both an evidentiary hearing and a new trial,
Further,

a hearing is required to permit legal argument on Johnson's claims from which this Court

may thereafter adjudicate Johnson’s claims on the merits.

CLAIM 1

OF THE TRIAL COURT
The trial court routinely conducted off the record sidebars in Defendant’s trial. Although

28

some of these sidebars appear innocuous, there are a few that don’t and should have been
conducted on the record. [Attachment 4, pps. 23-26, 33-34, [R. 129, R. 161, R. 233, R. 234, R.
265, R. 266, R. 383. (Counsel invited to Chambers before Defendant’s sentencing with no
record)]
The following testimony is illustrative of off the record discussions had sidebar with the
Juty present, that Defendant was neither privy to, or waived his presence for, in critical stages of
the prosecution13 regarding evidence and testimony to be received

in trial. Bradley A. West,

Gainesville P. D. was the crime scene technician responsible for collection of fingerprints and
other forensic evidence at the crime scene, including the victim’s clothing:
[Cross Examination by defense counsel MR DeTHOMASIS]

^s^tStSSSSSSS
A No^sh^not ^

^ y°U ^ n0t °btain ^ Sh6etS °r bedsPread?

Q Have you ever in your experience as a criminalistics evidence technician to
take mto evidence what appeared to be hair- samples in any particular case?
A Yes, sir, I have.
Q Do you have knowledge that hair samples can scientifically be matched to a
particular suspect? A Yes, sir, I understand that can be done.
Llf?0naIIyfm thC 0386 °f 3 sexual hMery investigation would semen
tatehdo evidence?™
^

^

*»

wan. ,o

13111 going to object t0 to* question as irrelevant.

InvesdgSShreSrmddTZZZIX&ZZ1* MnS
7HF rrS?4AcSIS:
1 approach toe bench for a moment, Your Honor?
JHE COURT. Sure. (Thereupon, a sidebar conference was conducted out of the
hearing of the reporter.)
BY MR. DeTHOMASIS:

29

Q Officer West, you did not collect any hair samples in this case, correct?
A Not directly, no, sir.
,
.
Q You did not collect any semen samples or what appeared to be semen
samples?
MR^DeTHOMASIS: I have no further questions, Your Honor. [Still on the
THE COURT: Tm disturbed by the fact that Officer West did not respond
directly to your question, Mr. DeThomasis. I just call that to your attention. _
MR. CARLIN: Your Honor, I think that based on his prior answer to what he
collected thatTHE COURT: I don’t know what not directly means.
MR. CARLIN: May we approach he bench, Your Honor.
THE COURT: Sure.fThereupon, a sidebar conference was
hearing of the reporter.)
BY .MR. DeTHOM.ASIS:
O Officer West, when you say indirectly is it fair to say
would collect or the apron that you would collect may in

conducted out of the
,
. . 4
that panties dial you
feet have had semen

samples or hair samples?
A That's correct, sir.
,,
.
Q You didn't specifically take an item into evidence because it appeared to you at
that time to be a semen specimen?
A That's correct, sir.
..........................
Q And likewise you did not take in a hair follicle mto evidence.
A That's correct
^
u
Q But in your experience items of clothing such as bras or panties could m fact
contain either hair or semen samples?
A Yes, sir.
Q And your primary purpose of collecting items and turning them over to
someone who would later test for those?
A Yes.
O So when you mention indirect there may in fact have been semen samples
and/or hair samples? A Yes, sir. MR. DeTHOMASIS: No further questions.
MR. CARLIN: I have no further questions of this witness.
THE COURT: You may stand down, Mr. West.”
[Attachment 4, pps. 32-35] [T. 183-186]
The sexual assault ldt used to collect DNA evidence from victim D.P. had already been
lost or destroyed by the State prior to the commencement of Defendant’s trial, on or after January
18,1989. [Attachment 19, p. 171]
30

This sidebar conference conducted off the record, without the presence of Defendant,
without any waiver ofpresence by Defendant, presents fundamental error of the trial

court, which

appears to have been knowingly acquiesced by defense counsel, as well as counsel from the State
in an effort to protect the trial record, by not having any record The sidebar arguments

are not of

record. Any motions made are not of record. Any decisions made by the trial court related thereto
are not of record.
Here, defense counsel was clearly not being the zealous advocate of Defendant’s rights
that the Sixth Amendment to the United States Constitution and Strickland demands.
Rule 2.070(d) Fla. R. Jud. Admin. (1992)14 states in pertinent part:
(d) Record. When trial proceedings are being reported, no part of the proceedings shall
be omitted unless all of the parties agree to do so and the court approves the agreement.

When a

deposition is being reported, no part of the proceedings shall be omitted unless all of the parties
and the witness so agree.” Id. [Emphasis added]
Defendant was not present by virtue that defense counsel never communicated with him
the detail of any off the record sidebars, and Defendant only learned after the fact that th
ese
sidebars and Chamber meeting were not being transcribed by law. As such, Defendant

was not

present for these critical stages of his prosecution, either actually or constructively. Defendant did
not agree for trial counsel to have off the record sidebar discussions in his trial, and did not waive
his right to have a complete trial record, for which Defendant now claims fundamental error of
the trial court, and knowing acquiescence of defense counsel to the off the record trial

conference

conducted without his knowledge or consent. This is particularly important due to the fact that
The 2018 amended version of this rale is identical, but is now found at Rule 2.535(c) Fla. R. Jud. Admin. (2018)

31

I

the police lost or destroyed DNA evidence prior to Defendant’s trial and withheld that knowledge
torn defense counsel. No Brady Notice regarding die lost or destroyed DNA evidence was
provided to

defense counsel. Defense counsel never asked Bradley A. West the operative

question, being, do you know why the panties and other articles of clothing were not tested for
DNA evidence, such as semen

and hair follicles; or where are the DNA test results from the

sexual assault kit forensically tested by your Department.
Rule 3.180(a)(1972-present) Presence of Defendant, states:
“(a) Presence of Defendant. In all prosecutions for crime the defendant shall be presort.
(2) when a plea is made, unless a written plea of not guilty shall be made in writing under
the provisions of rule 3.170(a);
md

swearing of the jury,
of laying the foundation for the introduction of evidence before the jury,
(7) at any view by the jury;
(8) at the rendition of the verdict; and
(9) at the pronouncement of judgment and the imposition of sentence.
(b) Presence; Definition. A defendant is present for purposes of this rule if the defendant is
physically in attendance for the courtroom proceeding, and has a meaningful opportunity to be
heard through counsel on the issues being discussed. Id.
Defendant was not present at sidebar conferences, did not waive his presence personally
or through counsel, and there is no record. There was no meaningful opportunity to be heard
through counsel or to have knowledge about what was being said after the fact, because these
sidebars were all off the record.
Defendant states that the off the record hearing conducted outside of his presence was at a

32

critical stage of his prosecution for which Defendant’s presence was mandatory, pursuant to Rule
3.180(a) Fla. R. Grim. P.; especially in consideration that there is no trial record of these critical
proceedings, such that they were akin to a trial conference or a conference to discuss whether the
case would be presented to the Jury or not, or under what parameters, regarding venue, subject
matter jurisdiction of the trial court, and failure of the Indictment as charged.
“Under Florida Rules of Judicial Administration 2.070(c), portions of trial court
proceedings can be omitted from the record if all parties agree to do so and the
court approves the agreement. Where a criminal defendant agrees to conduct
proceedings off the record and then remains silent as to any potential objection, he
397^1^4* DCA
^ °freC°rd” Fleehearty v- State, 712 So. 2d 396,
Defendant made such no such waiver of a trial record for a hearing that Defendant had

no

advance notice was conducted outside of his presence. Defense counsel acquiesced and
participated in this informal off the record hearing related to critical matters pertaining to
Defendant’s DNA evidence to Defendant’s prejudice such that

Defendant did not receive

effective assistance of trial counsel.
CLAIM 2

DEFENDANT’S DUE PROCESS RIGHTS WERE VIOLATED BY THE
~E to^defendant, ASDP’S
OTHER EVIDENCE COLLECTED BY POLICE FOR FORENSIC
EXA.MIJSATIQN WAS LOST OR DESTROYED BY THE STATE PRIOR
TO THE COMMENCEMENT OF DEFENDANT’S TRIAL: THE STATE
FAILED TO DISCLOSE THESE FACTS TO DEFENSE COUNSEL IN A
BRADY NOTICE; DEFENSE COUNSEL FAILED TO UNCOVF.lt THESE
FACTS INDEPENDENTLY, AND THE STATE LATER CAPITALIZED
ARTICLES NEVER TESTED IN IT’S CLOSING ARGUMENTS
WITHOUT OBJECTION FROM DEFENSE COUNSEL

On January 24, 2005, this Court entered an Order finding that the sexual assault lrit

was

lost or destroyed sometime after January 18, 1989, and could not be produced by the State for

33

DNA testing. [Attachment 19, p. 171] Defendant’s trial was conducted on January 26-27 , 1989,
and the fact that the victim’s sexual assault kit was either ‘lost or destroyed’ by the State
immediately prior to trial should have been disclosed to defense counsel as favorable evidence
for use in impeaching the credibility of the police investigation and the State’s prosecution case.
It is patently unreasonable to lose or destroy such a critical piece of evidence as the victim s
sexual assault kit. Early on in this case, upon sexual assault examination, no evidence of vaginal
trauma was found to exist [Attachment 1, p. 4], making the entire vaginal rape allegation highly
suspect, even prior to the sexual assault kit being lost or destroyed just prior to Defendant’s trial.
“Claims involving the State’s suppression of favorable evidence are analyzed
under Brady v. Maryland, 373 U.S. 83, 83 S.Ct. 1194, 10 L.Ed.2d 215 (1963)
recognizing a due process violation where the defendant shows (1) that
favorable evidence—either exculpatory or impeaching, (2) was willfully or
inadvertently suppressed by the State, and (3) that because the evidence was
material, the defendant was prejudiced.” Beasley, 18 So.3d at 487.
In contrast, claims involving the State’s destruction of evidence potentially
useful to die defense” are analyzed under Youngblood, recognizing a due process
violation “only if the defendant can show bad faith on the part of the State].
Guzman v. State, 868 So.2d 498, 509 (Fla.2003); see also King v. State, 808 So.2d
1237 242 (Fla.2002) (“The landmark case of ... Youngblood, and all cases
since! requires a defendant o show bad faith on the part of the person destroying
evidence before any relief can be afforded.”); see also 1 Charles W. Ehrhardt,
Florida Evidence § 401.1, at 164-65 (2015 ed.) (“In a criminal case, due process
apparently is not violated by the state introducing circumstantial evidence or
testimony which the state has lost or destroyed unless it is shown that the
destruction was in bad faith and there is actual prejudice to the accused. ),
Patterson v. State, 199 So. 3d 253, 257 (Fla. 2016)
On February 28, 2006 in this Court’s Order Denying Motion for Post-Conviction Relief
[DNA Testing], this Court stated that it would not consider further claims made by Defendant
regarding bad faith loss or destruction of DP’s sexual assault kit. [Attachment 19] Defendant

34

raises this ground here as a due process violation under Brady

v. Maryland, and not as a bad faith

destruction of evidence in respect of this Court’s Feb
ruaiy 28,2006 Order. Id.
Defendant was convicted of three counts of rape, while carrying
pps. 104-106] The only evidence of rape adduced

a firearm. [Attachment 7,

at trial was DP’s testimony regarding three

separate rape episodes . Crime Scene Technician Bradley A. West collected DP’s panti

es and
apron from the crime scene, supra, Claim 1 testimony. These articles
were never tested. The
sexual assault kit was lost or destroyed. The forensic evidence collected
was material to both the
State’s prosecution of Defendant and to the defense
case. Had defense attorney been told via a
Brady Notice that the sexual assault kit was
lost or destroyed, defense counsel could have used
this information for impeachment purposes

of all the State's witnesses in Defendant's trial, and
moreover, may have uncovered that all of the forensic evidence collected
at the crime scene was
likewise lost or destroyed by police, which would have devastated the
State’s case just based
upon sloppy police work alone; thereby taising reasonable doubt, and altering the comae of
Defendant’s trial dramatically.
Not only did the State fail to file a Brady Notice with the defense, the State also mislead
the Jurors in closing arguments reganiing the fomnsic evidence with these statements
objection by defense counsel:

no
disrobed
at
the
time.
The
bedding?
Iffe^e
w^s^^Ld1!
was
J^S

ft

couldn t havebeen him or if there was anything in that bedding that

have /. £

zr woald
35

, without

evidence15 any more than we lie on the stand.” [T. 260-261]
[Attachment 5]
Defendant’s

state and federal due process rights were violated. First, Bradley A. West’s

testimony was very guarded regarding crime scene evidence collected, supra, Claim 1, (e.g.
collected “not directly”).

Then, the Court was

responsive, supra, Claim 1. Then, there was
supra, Claim 1. Then years later it was

concerned that West’s testimony was not

an off the record sidebar regarding West’s testimony,

discovered by Defendant that the sexual assault kit was

lost or destroyed prior to Defendant’s trial. But that was after this Court denied Defendant’s
Motion to Preserve Evidence. [Attachment 14, pps. 139-141] [Attachment 15, p. 142] When
articles were

still available for DNA testing, this Court Denied Defendant’s Motion for DNA

w [Attachment 19, pps. 171-173] There remains an open issue whether the police likewise
testing10,
lost or

destroyed other articles of clothing collected by West, prior to West’s testimony in

Defendant’s trial, as Copeland only

cited records of evidence location without physically

inspecting those locations listed. [Attachment 14, pps.

139-141] Defense counsel was completely

ineffective at rooting out these critical deficiencies in evidence, either through independent
defense investigation, deposition processes, or through cross examination in Defendant s trial,
Defense counsel called no witnesses regarding the loss or destruction of evidence, the failure of
DNA
15

or forensic examination of articles collected, to explain why articles were not t

Conversely, the State did lost or destroy evidence before Defendant’s trial. [Attachment 19]

evidence of a sexual assault trauma upon the victim m this case. [Attachment 1]

36

etc. that could have been used to impeach all of the State’s witnesses and drive home sloppy
police work and reasonable doubt in Defendant’s

case. Next there is the material and

fundamentally unite Brady violation. Ho State never advised defense eounsel feat fotensie
evidence was lost or destroyed by police prior to Defendant’s trial commencing,
have the State advising the Juiy in closing that if there

Finally, you

was any forensic evidence either

inculpating Johnson or exonerating Johnson [on articles either not collected or not tested] that the
tors would have [somehow] heard about it Ban the State, feat is a ridiculous proposition on
it’s face. [T. 260-261] [Attachment 5, pps 70-71]
Throughout this process defense counsel exhibited ineffective assistance of counsel
markedly below the standards pronounced in Strickland. Defense counsel

never got to the root of

the matter prior to or during trial, at least on the record, regarding why there

was no DNA testing

performed. Now we know why the sexual assault kit was not DNA tested, because the police lost
it or destroyed it. This unrefuted fact alone, had it been known by Defendant at the time of
Defendant’s trial, would have been used for impeachment purposes. As such, it is irrelevant
whether Defendant could prove the sexual assault kit was exculpatory17

or not. Patterson, supra.

would have created reasonable doubt in the minds of the Jurors, as the loss or destruction of
evidence favorable to Defendant, vis a vis suppression of impeachment evidence for all of the
State’s witnesses called, coupled with the State’s Brady violation, deprived Defendant of his due
ilnni?Il<Z0hUrtS|I.0giC for^e“yi°S Defendant’s prior bad faith destruction of evidence claim [Attachment 19] is
SSuteS to

^ USCd

Bmdy Notice yarding the loss or destruction of the

37

process rights in trial and constitutional rights to effective assistance of counsel.
CLAIM 3

DEFENDANT’S STATE AND FEDERAL CONSTITUTIONAL DUE
PROCESS RIGHTS WERE VIOLATED BY THE STATE’S CLOSING
ARGUMENTS THAT DEFENDANT’S STATEMENT TO POLICE
ESTABLISHING AN ALIBI DEFENSE WAS A LIE, THAT
ANT
IS A LIAR. THAT THE STATE’S WITNESSES TELL THE TRUTH,
THAT ASA CARLIN CAN PERSONALLY VOUCH FOR THE
CREDIBILITY OF DETECTIVE COOPER OR CARLIN “WOULD HAVE
AND
OTHER
ARGUMENTS
CONSTITUTING
HIS
JOB ”
WITHOUT
ANY
OBJECTION
FROM
FUNDAMENTAL ERROR,
rnTmT
DEFENSE COUNSEL OR INTERVENTION FROM THE TRIAL COURT
SUA SPONTE, IN VIOLATION OF DEFENDANT’S CONSTITUTIONAL
RIGHTS TO A FAIR TRIAL AND EFFECTIVE ASSISTANCE OF TRIAL
COUNSEL

Defendant’s post Miranda custodial statement was taken by Gainesville Police
Detectives while in custody in the county jail. Defendant’s statement to police was a denial of
involvement in the crimes, an explanation where Defendant was earlier that day, and an
explanation regarding the rolls of coins and plastic bucket found inside the blue Hyundai he was
driving, the fact he was staying at the Red Carpet Inn with his girlfriend, etc. e.g. a denial and
alibi defense. Defendant’s statement to police constituted a reasonable hypothesis of innocence
on it’s face18. Instead of investigating Defendant’s alibi defense that Defendant was m
Jacksonville at the time of these offenses, ASA Carlin told the Jury instead: “Why didn’t the
police follow up in Jacksonville? Was he really there? No. Because we knew where he was.”, see
infra. [Attachment 5, p. 67]
The State capitalized on Defendant’s denials in closing arguments, but then went over the

18 Possession of firearm by convicted felon was not charged separately in Defendant’s Amended ^or^°n “ *'s

[Attachment 11, p. 121]

38

line reaching fundamental error by calling Defendant a liar, while simultaneously telling the
Jurors that the State’s witnesses were not liars, personally vouching for the credibility of State’s
witnesses, continually referring to the State and State’s witnesses as “we”, and lastly by
requesting that the Jurors “advocate” for the prosecutor because he was “sandwiched” in.
There are multiple statements that violate golden rule. There

were no objections by defense

counsel. The trial court did not intervene either to stop the State sua sponte. There were no
sidebars during the State’s closing arguments and certainly no objections by defense
cumulative effect of these prejudicial statements in closing by ASA John C.

counsel. The

Carlin constitute

fundamental error for which Defendant did not receive a fair trial.
1. y?u felt its we 311 did> the truth of our words and the truth of our
.,
identification. We know who he is. We knew he was the rapist when she turned
and pointed him out” [Attachment 5, p. 58, T. 248]

2. “And the why, well, we have what might be called an outline. He went to
Jacksonville, left Gainesville Friday night, left Jacksonville about eleven o'clock
that morning and came back here at two p.m. and was stopped. Now, we know that
that is a lie, which brings us to the end.” [Attachment 5, p. 60, T. 250]
3. I anticipate he may talk about the roll of coins. Yes, he was gone four hours so
maybe he bought something from some guy and therefore that is how he got this
roll of corns. If that m fact ware true, if indeed he got this during that four-hour
period of time from somebody else, the real rapist, why did he lie about it? Why
not really- come out and tell what he was really doing? Why not? Why say he is in
Jacksonville? Because he didn't want anybody to know where he really was ”
[Attachment 5, p. 66-67, T. 256-257]
*
4. “Why didn’t the police follow up in Jacksonville? Was he really there? No.
Because we knew where he was.” [Attachment 5, pps. 66-67, T. 256-257]
5.. “I* oufrageous, I guess you would expect me to find it outrageous, to say
that Miles Cooper would come in here and lie to you. If I thought Miles Cooper
would he to you under oath I would be after his job in a heartbeat.” [Attachment
5, p. 69, T. 259]

39

6. “I cannot create it. We don't create evidence any more than we lie on the
stand." [Attachment 5, p. 71, T. 261]
7. “I have one more thing to ask you to do. .In his defense of Mr. Johnson
x he
, is
.
going to raise a number of points with you. The only thing I can ask you to do is
just in your own mind as you get these points is say what would . Carlin say m
rebuttal to that Basically you have to be my advocate because I wont have
another chance to talk to you.” [Attachment 5, p. 75, T. 265] [Italics added]
The first paragraph makes the victim’s identification of Defendant “our identification”,
meaning the victim’s

identification, the State Attorney’s identification, and the Jurors

identification; wholly improper. There is no “our identification”. The Jurors are seated to
determine witness credibility, and whether a proper identification was made, not to listen while
the State tells the Jurors who is lying and who is telling the truth, in so many words.
The second and fourth paragraphs makes Defendant’s denial, reasonable hypothesis of
innocence,

and alibi defense [not investigated by police whatsoever] a lie, so it can be discarded

by the Jurors. Then Carlin told the Juror’s “we knew where he was”.

19

ASA Carlin stopped short of inviting the Jurors to dinner after they convicted Defendant.

40

The third paragraph makes Defendant’s statement regarding the roll of dimes20

another lie

by Defendant. The roll of dimes was critical to the State’s case, infra, Claim 4. So
now, ASA
Carlin has called Defendant a liar regarding being in Jacksonville at the lime
of these offenses,
plus called Defendant liar for explaining to police post Miranda where the rolled coins came
from. This is fundamental error requiring reversal of Defendant’s conviction standing al

one.

The fifth paragraph is ASA John C. Carlin
personally vouching to the Jurors that
Detective Miles Cooper from the Gainesville PD is not a liar,

and in fact, if ASA John C. Carlin

thought that he would come to testify in Defendant’s trial and lie, that ASA Carlin
would
personally be after Cooper’s job! This argument is quite remarkable
as ASA Carlin has made
himself an aothority to the Jomrs of who is telling the truth and who is lying, such that the Jurors
don’t have to bother determining witness credibility on their own.
The sixth paragraph is projection on ASA Carlin’s part: “I cannot create it. We don't
create evidence any more than we lie on the stand.’’ ASA Carlin did not tell the Jurors or defense
counsel that the State loses or destroys evidence, as that was a secret at the time
trial regarding the victim’s sexual assault DNA kit. Moreover,

of Defendant’s

Defendant argues in Claim 4,

mfta, that the State indeed created evidence for nee in the Econo Lodge pmsecution, e.g. the
pmnacle roll of dimes, that was not evidence of the Econo Lodge robbery whatsoever.
The seventh paragraph is

request by ASA John C. Carlin that the Jurors advocate for

him, when he is not speaking, to disbelieve defense counsel anticipated arguments before any
made. By this point ASA Carlin has elevated the Jurors

with that comment to honorary

2o
Econo Lodge cash drawer, and could not be authenticated by BarbaraS?
“*
whatsoever, infra

41

are

**

prosecutors advocating for the State and the prosecution; all in violation of Defendant’s rights to
a fair trial and effective assistance of trial counsel.
ASA Carlin, without any defense objection, called Defendant a liar twice, stated several
times that the State’s witnesses were tilling the truth and/or would not lie, and then gave
personal credibility reference for Detective Miles Cooper, incorporating a personal belief that
Cooper would not come

to court and lie. ASA Carlin made effective use of golden rule to the

State’s advantage creating fundamental error for which Defendant did not receive a fair trial
standing alone.
In O’Callaghan v. Stale, 429 So. 2d 691 (Fla. 1983), during the defendant's trial testimony
about his p

resence at the crime scene, foe prosecutor stated: "Tbafs a lie. I would like to go to foe

bench.” Id.at 696.

In response, the Supreme Court of Florida stated it is "unquestionably

improper" for a prosecutor

to assert that the defendant has lied. Id. Any trial lawyer should know

that this type of conduct is completely beyond foe limits of propriety. However, foe remarks did
not warrant a
reversal of the conviction in the O’Callaghan case.
In Washington v.

State, 687 So. 2d 279 (Fla. 2nd DCA 1997), the defendant denied the

accusations of sexual battery and sexual activity with a minor and foe prosecutor, in addressing
the defendant's testimony, stated:
“Joseph Goebbels, who was a propaganda minister for Germany back at the time
of Adolf Hitler, had a theory. He believed that you should lie to the people bu
that you shouldn't tie with small ties because you can get caught m small ties.
What you should do is you should tie big, come up with a big he because thats
something that you might be able to have the people buy is the big tie. Of course,
at that time it was that the Jews were responsible for everything that was wrong in
the world and they should be exterminated. Well, the defense in this case is
42

nothing but a big lie.” Id. at 280.
The Second District Court of Appeal in Washington stated; "[I]t is difficult for us to
perceive a more egregious and prejudicial statement,", and held "[i]t is 'unquestionably improper’
for a prosecutor to state that the defendant has lied ...it constitutes an improper statement of
opinion by the prosecutor. Id. (citing O'Callaghan v. State, 429 So.2d 691, 696 (Fla. 1983)). The
second district concluded it had "no choice but to reverse Washington’s judgment and sentence.
Id.
In Bass v. State, 547 So. 2d 680 (Fla. 1st Dist. Ct. App. 1989), the prosecutor told the jury
”[i]f you want to tell Jimmy Wayne Bass he lied, there is only one verdict, guilty. The man is
guilty. Id. at 682. The First District Court of Appeal concluded the prosecutor's remarks "could
have been and were likely construed by the jury as directing them to ’send a message' about lying
in the courtroom rather than focusing their attention on whether the state had proven Bass' guilt
beyond a reasonable doubt." Id. at 682-683
A similar comment was made by the prosecutor in Jones v. State, 449 So. 2d 313 (Fla.
5th Dist. Ct App. 1984). The Jones prosecutor did not mince words when he said: "What about
Tyrone Jones? I submit, that when Tyrone Jones took the stand, he lied to you.” Id.at 314. The
First District Court of Appeal reversed because of the "improper comments and argument and the
state’s tenuous case against Jones.” Id. at 314.
ASA Carlin’s accusations that Defendant’s post Miranda denial and alibi statement was a
lie, coupled with only the State’s witnesses telling the truth, and his opinions associated with
both and personal reference for Miles Cooper rise to the level of fundamental error in the State’s

43

!

closing for which Defendant did not receive a fair trial, based upon fundamental error committed
by the trial court, without objection from defense counsel. Defense counsel should have put a
“halt” to ASA Carlin right away with a timely objection and sidebar conference21 to stop ASA
Carlin in his tracks with these egregious comments and opinions and golden rule violations. That
did not happen and Defendant was convicted as a result of it. In fact, there are so many improper
arguments, comments, and fundamental errors within ASA Carlin’s closing arguments
[Attachment 5, pps. 56-76] that this closing could be used as an outline for improper
prosecutorial arguments in closing under Florida caselaw.
CLAIM 4

DEFENDANT’S DUE PROCESS RIGHTS WERE VIOLATED BY
ADMISSION OF THE ROLL OF DIMES INTO STATE’S
PINNACLE
THE
REPRESENTING
EVIDENCE,
EVIDENCE
PLACING
IDENTIFICATION ARTICLE OF
DEFENDANT AT THE ECONO LODGE; WHERE DEFENSE
COUNSEL FAILED TO VOIR DIRE THE WITNESS,\; WHERE
WITNESS LATER REVEALED THAT DIMES ENTERED INTO
STATE’S
EVIDENCE
WERE
NOT
PROPERLY
AUTHENTICATED SPECIFICALLY AS HAVING COME FROM
THE ECONO LODGE CASH DRAWER, AS OPPOSED TO A
LEGITIMATE SOURCE, SUCH THAT DEFENDANT WAS
WRONGFULLY CONVICTED AND DENIED EFFECTIVE
ASSISTANCE OF TRIAL COUNSEL

Defendant was convicted with a forced in court identification from D.P. of Defendant,
where the State knew that D.P. could not identify Defendant from the photo lineup. [Attachment
1] These matters were litigated on appeal and as such, are not relitigated here, except that
Defendant would ask this Court to consider that claim once again, but just for purposes of the
cumulative effect all errors in Defendant’s trial, Claim 11, infra.

21 Albeit an off tbe record objection and sidebar conference. All of Defendant’s sidebar conferences were off the
record, supra.

44

The one special roll of dimes entered into evidence as State’s Exhibit #14 [Attachment
3, p- 11, T. 137], through the testimony of Barbara Doran, Econo Lodge Manager, without
advance voir dire or objection from defense counsel, should never have been entered into
State s evidence, because Barbara Doran could not authenticate that specific roll of dimes of
having been in the Econo Lodge cash drawer. The roll of dimes became ASA Carlin’s

most

valuable piece of evidence tying Defendant to the Econo Lodge in the State’s prosecution;; more
important in fact, that D.P.’s in court identification22 of Defendant as her assailant. The identity
of D.P.’s assailant, the Econo Lodge robber and her alleged rapist was the sole issue at
Defendant’s trial, notwithstanding that there is still no evidence 31 years later that D.P. was
raped other than D.P.’s testimony standing alone.
ASA John C. Carlin argued in closing:
“When you look at the other rolls you may find them to be generic. This one is
not. This one has a brand name on it spelled r-a-p-e .. That puts him [Defendant]
in the lobby on July 9th when an armed robbery took place. I want to offer you a
scenario because I know that there is some thought that maybe this is such a
generic waste can that it could come from anywhere, even though we know it
looks like one from that motel.” [Attachment 5, p. 62, T. 252]
This particular roll of dimes does not spell “r-a-p-e”, but in fact spells “F-l-o-r-i-d-a
M-o-t-e-1 . The Florida Motel, a fairly Florida iconic Gainesville motel built in 1935, stood next
door to the Econo Lodge, with a physical address of 2603 SW 13th Street, Gainesville, Florida;
whereas the Econo Lodge was situated at 2649 SW 13th Street [aka Highway 441]. [Attachment
10, pps. 116-119] In 2018, the Florida Motel and property was sold to Comfort Suites. This is
significant, because the roll of dimes in question was wrapped in green colored paper, taped at
The Jurors heard that D.P. could not identify Defendant from the photo lineup, and knew that DP was
identifying Defendant in Court as her assailant for the very first time.

45

both ends, and stamped “Florida Motel”. This roll of dimes was recovered from the front
floorboard of the blue Hyundai that Defendant was driving when Defendant was pulled over
some 5 hours after the Econo Lodge robbery, together with several generically wrapped coins
that were not identifiable by anybody.
Barbara Doran was the State’s witness used to authenticate this one roll of special dimes.
Prior to her testimony Doran had met with police and initialed the coin roll, to add to her
authentication legitimacy at trial. The dimes were entered into State’s evidence with no voir
dire and no objection from defense counsel, regarding authentication, or predicate for admission.
The dimes should not have come into State’s evidence whatsoever, because the dimes were not
properly authenticated as having come from the Econo Lodge cash drawer. Essentially, Doran
authenticate that particular roll of dimes as being different than the rest, as opposed to any
meaningful authentication of that specific roll of dimes having come from the Econo Lodge cash
drawer.
On cross examination, after the dimes were already admitted into State’s evidence,
defense counsel asked Barbara Doran these questions and she responded more accurately and
honestly, than she did when answering the State’s questions used to lay a foundation for
admission of the roll of dimes into State’s evidence originally.
“Q Ms. Doran, is it correct that at the time, in feet, July 9th, the policies and
procedures of the clerics who were handling the cash did not include a practice of
initialing rolled coins?
A That’s correct.
Q The rolls themselves never were stamped with the name Econo Lodge?
A There were no identifying marks.
Q Are you identifying them at this point?
A Yes,lam.
Q And have you learned since this time the need to identify them if you are to
46

properly be able to identify them as being yours?
A Yes.

A That's Florida Motel. That's next door to us
Q Are you connected to the Florida Motel, the Econo Lodge?
A No.
Q Same owner?
A No.
5LDld ?is r°U of t0™ « opposed to all the other rolls of coins stands
out
because it is the type of roll that needs to be folded and taoed at thr
opposed to being closed by a machine?
P * ^ <ad “
A Well; it stood out because it was unlike the others. We didn't tape it that way.
Q
you saying this particular roll ofcoins came to you and was placed in vo

cZalt:r? Areyou saying tkis °ne * *-**"" one iztazdi;z
A lam saying one that looked like that.
Q Are you saying the other rolls of coi
corns you were shown in this bag are
definitely not from your motel?
A No, I’m not saying that.
Q You just can't identify them as being from your motel?
A They are generic in nature.” [Attachment 3, T. 141-143]
This cross-examination testimony from Ms. Doran reveals that th

e particular roll of dimes

stamped “Florida Motel” was not authenticated as having been in the Econo Lodge cash drawer,
just “one that looked like that.” Id. None of the coins entered i
in Defendant’s trial were properly
authenticated and should not have been admitted i
into evidence, but for, defense counsel’s
approach of conducting voir dire after the items are already admitted into

evidence; when it is too

late.
The identification of the Florida Motel roll of dimes having

come from the Econo Lodge
robboy fa (he above styled case was contrived by the police and prosecutor fa toto.
The Econo Lodge robbery occurred on July 9,1988. Defendant was in custody since that

47

time. At the time
and a

of Defendant's arrest, the police seized a fireatm, some coin rolls, some cash,

plastic garbage pail. Police also seized Defendant's clothing and personal affects at the

time of arrest.
On My 26,1988 Ihe State filed the case of State v. Roosevelt Johnson, Alachua County
Case No.: 01

1988 CF 2935A, based upon Gainesville PD Investigation No. : GPD 8813531,

charging Defendant with Count 1

: Armed Robbery and Count 2: Possession Of A Concealed

Firearm By Convicted Felon. [Attachment 11, pps. 120-122]
On August 12, 1988 ASA John C. Carlin wrote the following Memo addressed to
Detective Fem Nix, GPD, excerpted in pertinent part:

could recognize them:
a. The 357 Magnum blue steel revolver
b. The rolled coins (other titan ones ID' d by Comfort Inn.

clothing currently in evidence which might match her description.

well nail him The Econo Lodge case is at this juncture a marginal trial case.
Thanks John. End Of Memo” [Attachment 12]
This Memo on it’s face evidences that fact that the police and the State may have used
evidence from three (3) separate Gainesville PD investigations in the instant case wrongfully, in
order to make the instant case jive in a jury trial.
Then on the same day, August 12, 1988 the State filed the above-styled case: Case No.:

48

01 1988 CF 3205 A, based upon GPD Investigation Number: GPD 88-13520; a different GPD
investigation of Defendant than listed in Case No. No.: 01 1988 CF 2935A, based upon
Gainesville PD Investigation No.: GPD 8813531. The same evidence seizures from Defendant’s
blue Hyundai were used in the Comfort Inn case and the Econo Lodge case. The roll of dimes
identified in the Comfort Inn case was entered into evidence in the Econo Lodge case, with the
perfunctory authentication provided by Barbara Doran; wrongfully.
Defendant was denied a fair trial and effective assistance of trial counsel as guaranteed by
the United States and Florida constitutions, requiring reversal of Defendant’s convictions and a
new trial.
On January 24, 1989, immediately prior to Defendant’s trial on January 26, 1989, but
after the State lost or destroyed D.P.’s sexual assault kit on or after January 18, 1989, ASA John
Carlin Nolle Prosequi Case No. 01-1988-CF-2955. [Attachment 11, p. 121]
It appears that the special Florida Motel” roll of dimes entered into State’s evidence as
Exhibit 14 in Defendant’s trial, were either previously authenticated in the Gainesville PD’s
investigation of the Comfort Inn, or were not evidence of anything whatsoever, just marked
differently. In either scenario, these dimes were not legitimately authenticated by Barbara Doran
in the Econo Lodge case and should have been excluded from evidence in Defendant’s trial.

49

CLAIM 5

DEFENDANT’S STATE AND FEDERAL CONSTITUTIONAL DUE
PROCESS RIGHTS WERE VIOLATED BY THE STATE’S
CLOSING ARGUMENTS THAT SHIFTED THE STATE’S
BURDEN OF PROOF TO DEFENDANT, WITHOUT DEFENSE
COUNSEL OBJECTION, REPRESENTING FUNDAMENTAL
ERROR OF THE TRIAL COURT, SUCH THAT DEFENDANT DID
NOT RECEIVE A FAIR TRIAL

ASA John C. Carlin made the following closing arguments in Defendant’s trial that
unconstitutionally shifted the burden of proof, without objection or record made by defense
counsel [Attachment 5, p. 65, T. 255]
“Incidentally, if there was something specific that a defendant wanted to bring
before, you he has that opportunity to subpoena Sgt. Bishop himself the same
subpoena power I have. So anything really important he had to say he could have
subpoenaed her himself but he did not.” Id.
ASA Carlin impermissibly shifted the burden of proof to Defendant by suggesting that
Defendant should have called witnesses in the defense case to present evidence to the Jurors to
prove that he is not guilty. This statement is fundamental error for which Defendant did not
receive a fair trial, highlighted by defense counsel’s failure to object, make a record23, or even
understand the issue. Defendant was denied a fair trial and effective assistance of trial counsel,
with this statement cited as yet one more example of the unfettered and fundamentally unfair
closing made by ASA Carlin requiring this Court to vacate Defendant’s Judgment and Sentence

23 Bear in mind that ASA Carlin called Defendant a liar, even though defense counsel called no defense witnesses,
by referring to Defendant’s statements to police twice as lies. Here ASA Carling buttresses the defense lack of
evidence to support defense counsel’s anticipated arguments also as lies because of defense counsel’s failure to call
defense witnesses to corroborate defense counsel’s anticipated arguments. Lastly, defense counsel had not even
presented those arguments yet that ASA Carlin anticipated. If feet defense counsel never made those arguments m ^
closing. Yet, ASA Carlin told fee Jurors feat Defendant could have called witnesses to corroborate defense counsel’s
arguments, but didn’t. ASA Carlin impermissibly shifted fee burden of proof to Defendant, wifeout any objection
from defense counsel, to Defendant’s prejudice, such that Defendant was convicted and sentenced to life in prison.
50

\
i

now.
Although there are many Florida cases in this regard, only one case is cited here. In Smith
v. State, 843 So. 2d 1010, 1011 (Fla. 1st DCA 2003) the prosecutor argued in closing “Nobody
testified he wasn’t the guy.”, causing the First District to reverse Smith’s conviction as reversible
error upon timely objection made, permitting the burden of proof to impermissibly shift to
Defendant. The Court said:
“In light of the evidence presented, the statement, “Nobody testified he wasn’t the
guy,’’ can only be taken as intended to suggest, impermissibly, that appellant had
some burden to present evidence relating the state’s identification testimony. See,
e.g., Jackson v. State, 575 So.2d 181, 188 (Fla. 1991) (noting that “the state
cannot comment on a defendant’s failure to produce evidence ... because doing so
could erroneously lead the jury to believe that the defendant carried the burden of
introducing evidence’’); Jackson v. State, 832 So.2d 773, 777-78 (Fla 4th DCA
2002) (concluding that the prosecutor’s question during closing argument
implying that no evidence had been presented to counter an officer’s identification
testimony impermissibly shifted the burden of proof); Shelton v. State, 654 So.2d
1295, 1296-97 (Fla 4th DCA 1995) (concluding that the prosecutor’s question
during closing argument asking whether there was “anything showing that [the
defendant] didn’t make that sale” impermissibly shifted the burden of proof). It is
equally clear that the statement constituted an impermissible comment on
appellant’s failure to testify. See, e.g., Rodriguez v. State, 753 So.2d 29, 37
(Fla2000) (concluding that a prosecutor’s comment that “there was nothing in
the direct or cross examination of any witness who testified that pointed to any
other person being involved other than ... this defendant” constituted an
impermissible comment on the defendant’s failure to testify); State v. Marshall,
476 So.2d 150, 153 (Fla.1985) (noting that “[a]ny comment on, or which is fairly
susceptible of being interpreted as referring to, a defendant’s failure to testify is
error and is strongly discouraged”); Shelton, 654 So.2d at 1297. Having carefully
reviewed the evidence presented at trial, we are unable to accept the state’s
argument that the error was harmless. See State v. DiGuilio, 491 So.2d 1129
(Fla. 1986).” Id.

51

CLAIM 6

DEFENDANT’S STATE AND FEDERAL CONSTITUTIONAL DUE
PROCESS RIGHTS WERE VIOLATED BY THE CUMULATIVE
EFFECTS OF STATE’S CLOSING ARGUMENTS, WITHOUT DEFENSE
COUNSEL OBJECTION, REPRESENTING FUNDAMENTAL ERROR OF
THE TRIAL COURT, SUCH THAT DEFENDANT DID NOT RECEIVE A
FAIR TRIAL

As stated several times above, defense counsel made no objections whatsoever in the
State’s closing arguments, notwithstanding that ASA John C. Carlin’s closing argument was
replete with false and misleading facts regarding DNA evidence (not tested), facts not in
evidence from witnesses not called, calling Defendant a liar twice, telling the Jury that State
witnesses and police officers don’t lie, improper comments regarding the roll of dimes being
spelled “R-A-P-E” to enrage the Jurors, arguments regarding the roll of dimes that ASA Carlin
knew were not taken from the Econo Lodge by Defendant and could not be properly
authenticated as such by witness Barbara Doran, comments regarding hearsay evidence not
before the court from witnesses never called, golden rule comments, asking the Juror’s to
“advocate” for ASA Carlin in his absence, shifting the burden of proof to Defendant, and
multiple other examples of improper closing arguments. There are at least a dozen objections that
should have been made by defense counsel that were not. The trial court did not intercede and
stop ASA Carlin’s arguments either. [Attachment 5, pps. 56-76, T. 246-266] Defendant cites
the cumulative effects of the prosecutor’s closing arguments as fundamental error. Defense
counsel should have objected and called a sidebar immediately. The Court sua sponte should
have stopped ASA Carlin early on, but did not. The end result is fundamental error through the
cumulative effect of ASA Carlin’s closing arguments standing alone, evidencing that Defendant
did not receive a fair trial, or affective assistance of counsel in violation of Defendant’s rights
52

afforded by the United States and Florida constitutions.
It is a well settled principle of Florida law that a court must address the cumulative
impact of all improper comments or actions by the prosecutor in determining their impact on the
fairness of the trial. In Defreitas v. State, 701 So. 2d 593 (Fla. 4'

DCA 1997) the Fourth District

stated:
Measuring the prosecuting attorney’s conduct in the instant case by the
aforementioned well settled standard, we are persuaded that appellant has been
temed one of his most precious constitutional rights, the right to a fair criminal
tad by the cumulative effect of one prosecutorial impropriety after another one.
Furthermore, we are equally persuaded that the cumulative effect of the numerous
acts of prosecutorial misconduct herein were so prejudicial as to vitiate appellants
entire trial. In addition, we are likewise persuaded beyond question that the
cumulative effect of the numerous acts were of such a character that neither
rebuke nor retraction could have or would have destroyed there sinister influence
The prosecutorial misconduct, taken in its entirety and viewed in its proper
context, is of such a prejudicial magnitude that it enjoys no safe harbor anywhere
m the criminal jurisprudence of this state. Accordingly, we find fundamental
error. Defreitas, 701 So.2d at 600 (emphasis added)
Other Florida cases also hold that the cumulative effect of the prosecutor’s
actions must be viewed in determining whether a defendant was denied a fair trial.

comments or
See Brown v.

State, 593 So.2d 1210 (Fla. 2nd DCA 1992)(holding that a combination of improper
made by the prosecutor in closing argument amounted to fundamental error); Kelley

comments

v. State, 761

So.2d 409 (Fla. 2nd DCA 20QQ)(holding that the cumulative effect of the prosecutor’s improper
comments and questions deprived Kelley of a fair trial); Garron v. State, 528 So.2d 353 (Fla.
1988); Ryan v. State, 509 So.2d 953 (Fla. 4th DCA 1984)(holding that prosecutorial misconduct
amounts to fundamental error and is excepted from the contemporaneous objection/motion for
mistrial rule, when the prosecutors renarks, when taken as a whole are of such character that its

53

sinister influence could not be overcome or retracted); Freeman v. State, 717 So.2d 105 (Fla.5th
DCA 1998); Pacifica v. State, 642 So.2d 1178 (Fla. 5th DCA 1994)(holding that the cumulative
effect of prosecutorial misconduct during closing argument amounted to fundamental error);
Taylor v. State, 640 So.2d 1127 (Fla. 1 DCA 1994); Carabella v. State, 762 So.2d 542 (Fla. 5th
DCA

2000)(holding that the cumulative effect of improper prosecutorial comments during

closing argument was so inflammatory as to amount to fundamental error); Pollard v. State ,444
So.2d 561 (Fla. 2nd DCA 1984)(holding that the court may look to the “cumulative effect” of
non-objected to errors in determining “whether substantial rights have been affected”).
The above case law establishes that the trial court erred in foiling to assess the cumulative
effect of the prosecutor’s misconduct in this case. This is a legal error that is afforded no
presumption of correctness and is subject to de-novo review by this Court. In conducting the
de-novo review this Court should assess the cumulative effect of the prosecutorial misconduct in
accordance with the law contained in the cases cited above.

CLAIM 7

THIS COURT HAS JURISDICTION TO ADJUDICATE
DEFENDANT’S PREVIOUSLY FILED, AUGUST 5, 1998 AND
AUGUST 24, 1998, INEFFECTIVE ASSISTANCE OF COUNSEL
CLAIMS, PREVIOUSLY DENIED AS UNTIMELY FILED,
BECAUSE THIS COURT DID NOT ADJUDICATE THOSE
CLAIMS ON THE MERITS, PURSUANT TO MANIFEST
INJUSTICE GROUNDS

On April 21, 1999 [Attachment 18] this Court entered an Order Denying Defendant s
August 5, 1998 supplemental ineffective assistance of counsel claims, and August 24, 1998
additional Brady violation claim, notwithstanding that an evidentiary hearing had never been
conducted in the interim regarding the alibi defense claim of Defendant’s initial 3.850 Motion
54

filed on November 1, 1991. to other words, there was a seven (7) year lapse with no evidentiary
hearing. The trial court's April 21, 1999 spells out in great detail the failures

of post-conviction

counsel Tom Copeland regarding this extended time lapse, pm se filings made by Defendant, and
Copeland’s preparedness to go forward with claims made

anyway at file time of the hearing.

[Attachments 13-18, inclusive] The flavor of this Court’s Denial

of Defendant’s August 5 and

August 24, 1998 additional post-conviction olaims made, just prior to the evidential hearing
conducted, was that these claims were outside the 3.850 two-year time limitation, and/or did not
constitute valid “supplements”, per se, but rather were new claims made. Id
Then, on December 19, 2008, the Honorable Frederick D. Smith, in Case No.
01-2008-CA-1969 Denied [Attachment 21, pps. 197-200] “Defendant's Writ Of Habeas Corpus
For Leave to File A Belated Supplement to His Initial Post-Conviction Motion'’
pps. 174-19624], filed through counsel Marcia J. Silvers,

[Attachment 20,

Esquire. Again, file Court was most

concerned regarding the strict two-year 3.850 tone limit, and reasons why the court did not have
any legal reason to permit the supplements, notwithstanding that

Defendant’s three (3)

post-conviction counsel in the period 1991-1998 in no way evidenced that they were competent
post-conviction counsels. [Attachment 18]

nng new claims, provided that new claims brought now, were never adjudicated on the merits in the past

55

;

The flavor of both Orders, April 21,1999 and December 19, 2008, was that the Court is
bligated to permit any diversion of the 3.850 two-year time limitation; therefore, the Court
not o
ruled that it would not permit those supplemental filings. These are precisely the types of claims
that have never been adjudicated on the merits that fit squarely within this Court’s jurisdiction
under manifest injustice grounds. Since the claims raised in Defendant’s August 5 and August
24, 1998 supplements have never been adjudicated by this Court, this Court does have
jurisdiction to finally adjudicate those claims if it were so inclined at this time. [Attachments
13-14]
For reasons described below, this Court also has authority to consider these old claims
made by Defendant either in toto, or under a cumulative effect of errors made by defense counsel
prejudicing the outcome of Defendant’s case.
Defendant’s August 5, 1998 and August 24, 1998 claims are cited here as a composite
Claim 7, as

delineated in [Attachment 13, pps. 131-138] to this Petition/Motion, and Defendant

remains cautiously optimistic that this Court will take jurisdiction to adjudicate these claims now
on the

merits together with new claims made in the instant Petition/Motion based upon manifest

injustice jurisdiction of this Court and in the interests ofjustice.
On August 5, 1998, Johnson filed a Pro Se Supplement to Motion for Post-Conviction
Relief. [Attachment 13, pps. 131-132] [DE 172] This Supplement listed additional ineffective
assistance of

counsel claims: 1.) Failure of defense counsel to advise Defendant of his right to:

i.) testify at trial in his own defense, ii.) to participate decision making regarding evidence to
present to the jury, or iii.) to participate in formulation of a defense strategy, 2.) Failure of

56

defense counsel to present defense witnesses regarding: i.) the

source of the coins, ii.) the source

of the trash can, ill.) a witness who sow a different sospect in the area, iv.) a witness saw a female
clerk in the office at the time of the offense, v.) regaidiug victhn’s examination where no
serological or hair evidence of sexual batteiy was found, vi.) whether a trash

can was missing

from Econo Lodge Room 213, vii.) whether Red Carpet Inn used the same type of trash
Econo Lodge, viii.) that defendant was not “well spoken”

can as

as described by the victim, and ix.)

that defendant had [6] gold teeth and tattoos on the date of the offense; 3.) Failure of defense
counsel to request a forensic examination of the clothing of both the victim and Defendant,
which were both in police evidence; 4.) Failure of defense counsel to take d

epositions from and

present testimony regarding: i.) the officer whose notes included victim’s description of the
assailant, conflicting with the written police report, ii.) the officer who talked with

a witness who

saw another potential suspect in the area at the time of the offense, and iii.) the officer who talked
with a witness who saw a female clerk in the office at the time of the offenses.
On August 24, 1998, Johnson filed a Pro Se “Motion for Post-Conviction

Relief-Brady

Violation”. [Attachment 13, pps. 133-138] [DE 174] The Brady violation claim” related to the
failure of the prosecution to disclose evidence favorable to Defendant, including, Detective Fem
Nix’s notes that the victim could not identify the assailant’s clothing; portions of Nix’s notes
related thereto given to the defense were incomplete, as favorable to Defendant.
These 1998 claims never adjudicated on the merits by this court remain valid claims
under manifest injustice jurisdiction of this Court, especially in consideration of the cumulative

ents I & 12.

57

effect of all other errors

cited herein, for purposes of the instant Petition/Motion. The State

cannot aver in good faith that any of the post-conviction counsel appointed to Defendant’s case
by this Court in

1991-1998 were competent post-conviction counsel. Although there is no Florida

claim for ineffective post-conviction counsel, it still had a grave impact on Defendant, such that
this Court should consider that fact in taking jurisdiction now under manifest injustice grounds to
adjudicate all of these claims on the merits.
Additionally, the passage of time has proven Defendant right on many of these issues. It
appears from a review of the record as a whole that certain peculiar occurrences through the years
support a logical conclusion that the State is more concerned about protecting Defendant s
Judgment and Sentence in this case than service justice in this case.
February 15, 1989 Motion for Release Of [Trial] Evidence and Order Granting Release,
effectively removed the State’s trial evidence in this case and sent it back to the Gainesville
Police Department, while

Defendant’s direct appeal pending. Defendant was convicted on

January 27,1989. There is no valid reason why the evidence was released, and released ex parte.
This “Release” would have

included the Florida Motel “roll of dimes” that is material to the

instant Petition/Motion.
Defendant’s fairly innocuous 1997 Motion to Preserve Evidence [Attachment 14, pps.
139-141] filed by Tom Copeland on December 23, 1997, was Denied by this Court on May 11,
1998. [Attachment 15, p.

133] Essentially the Court via this Order sent a message to fee

Gainesville PD that it was okay to destroy the evidence in Defendant’s case, at a time when
Defendant was

specifically requesting feat it be preserved. It is unknown if or when fee

58

Gainesville PD intentionally destroyed other forensically testable articles of evidence in this case,
or whether those articles are still available here 22 years later
Then on or about January 24, 2005, this Court found that the sexual assault kit,
evidencing whether or not D.P. was actually raped or not, was lost or destroyed by the State on or
after January 18, 1989, the week before Defendant’s trial commenced on January 26, 1989.
[Attachment 19, p. 171] Then on March 2, 2006 this Court Denied Defendant’s Motion for
Post-Conviction Relief DNA Testing. [Attachment 19]
Defendant claims that the DNA evidence never tested would have conclusively proved
that Defendant was not D.P.’s rapist, if in fact D.P. was raped at all by some other unknown
assailant, in consideration that D.P. showed no signs of vaginal trauma when immediately
examined by a doctor. [Attachment 1, p. 4]
CLAIM 8

DEFENSE COUNSEL WAS INEFFECTIVE PRE-TRIAL, IN TRIAL, AND
POST TRIAL, AS DEFENDANT’S CONVICTION BASED UPON
PURELY CIRCUMSTANTIAL EVIDENCE SHOULD NOT HAVE
OCCURRED, SUCH DEFENDANT DID NOT RECEIVE A FAIR TRIAL

The State in Johnson's case did not present a shred of corroborating evidence that linked
Johnson to the Econo Lodge robbery and rape of D.P. other than a roll of dimes that should not
have been admitted into evidence, and an in court identification by D.P. coached by the State to
identify Defendant, the only black male sitting in the courtroom.
The State's entire case was based on evidence that crimes were committed, coupled with
an m-court identifications by D.P. that Defendant was the assailant, with no prior identification
of Defendant by D.P. prior to her testimony in trial. The State’s evidence used to convict
Defendant was circumstantial at best, coins and a generic Rubbermaid trash can found in a car
59

driven by Defendant, but not owned by Defendant. There is a heightened sufficiency of evidence
standard where evidence used to convict a putative defendant is wholly circumstantial. Defense
counsel never moved the trial court to suppress anything pre-trial, did not voir dire State’s
witnesses to authenticate State’s evidence, did not move for judgment of acquittal based upon
sufficiency of the evidence, and did not file a motion for new trial after conviction. Defense
counsel did absolutely nothing in defense of this case.
The Fifth District Court of Appeals stated in Knight v. State, regarding the sufficiency of
evidence necessary to convict a defendant in a purely circumstantial evidence case.
“The “special standard of review of the sufficiency of the evidence” which
“applies where a conviction is wholly based on circumstantial evidence” is most
often articulated by Florida’s appellate court’s as follows: “Where the only proof
of guilt is circumstantial, no matter how strongly the evidence may suggest guilt, a
conviction cannot be sustained unless the evidence is inconsistent with any
reasonable hypothesis of innocence.” Law, 559 So. 2d at 188.” Knight v. State,
107 So. 3d 449,457 (Fla. 5* DCA 2013)
In the instant case, the pinnacle issue was misidentification of Defendant by D.P., or even
worse, forced identification of Defendant by D.P. for the first time in court while testifying,
where Defendant had an alibi defense constituting a reasonable hypothesis of innocence to these
heinous acts. The alibi defense remained unrefuted because it was not investigated by police. In
closing ASA Carlin told the Jury that Defendant was a ‘liar’.
The State did not provide one concrete piece ofevidence that linked Johnson to these
crimes. The State emphasized that the victim D.P. identified Johnson as the one who committed
these acts. Her testimony early on is "different than the actual description of Johnson... [and]
her description is not as complete as it should be or as it becomes later. (T. 227). The

60

description included a person wearing a red shirt, possibly a yellow shirt, T-shirt-type." (T. 229).
At no one's surprise, there was no evidence Which pointed to Johnson ever wearing a yellow or
red t-shirt. Additionally, the description of the vehicle given by the victim did not match or come
close to the description of Johnson's vehicle, a green Cadillac verses a blue Hyundai.
Moreover, the victim testified that die rape occurred on a bed in the motel, yet there was
no evidence of semen or hair samples on the sheets, carpet, or on the clothes of the victim linking
Johnson to this crime. There were plenty of finger prints taken from the scene of the crime and
none of them matched Johnson’s either. Aside from the mistaken identification of Johnson by the
victim, the jury was not presented any concrete evidence connecting Johnson to this case or this
act. Jurors were not permitted to hear that Johnson’s arms are covered with tattoos, yet the
assailant described by D.P. had no arm tattoos and she was able to clearly see the assailant’s
arms.
The State did not come close to meeting their burden of proving that Johnson committed
these crimes beyond a reasonable doubt, based upon an acute examination of circumstantial
evidence resulting in Defendant’s convictions, due to improper arguments by ASA Carlin,
coupled with ineffective assistance of Defendant’s trial counsel, who did not prepare any defense
case whatsoever, when he could have. For instance, defense counsel could have called the
medical expert examining D.P. to testify that there was no evidence of vaginal trauma indicated
in their examination. [Attachment 1, p. 4] Defense counsel rested immediately following the end
of the State’s case; calling no witnesses and having no defense case prepared. An evidentiary
hearing and a new trial is required based on manifest injustice grounds.

61

CLAIM 9

DEFENSE COUNSEL WAS INEFFECTIVE PRE-TRIAL, IN TRIAL, AND
POST TRIAL, FOR NOT DEMANDING THE DNA TEST RESULTS OF
D.P.’S SEXUAL ASSAULT KIT, AND FOR NOT DEMANDING ANY AND
ATT. OTHER BRADY MATERIALS, FOR WHICH THE STATE SHOULD
HAVE FILED BRADY NOTICES, AND WHICH DEFENDANT
AFFIRMATIVELY DEMANDS NOW, SUCH THAT DEFENDANT DID
NOT RECEIVE A FAIR TRIAL, OR EFFECTIVE ASSISTANCE OF
TRIAL COUNSEL IN VIOLATION OF DEFENDANT’S
CONSTITUTIONAL RIGHTS AFFORDED BY THE UNITED STATES
AND FLORIDA CONSTITUTIONS

This Court found that D.P.’s sexual assault kit was lost or destroyed “sometime after
January 18,1989" [Attachment 19, p. 171]. Bradley A. West testified in Defendant’s trial that
none of the articles of clothing taken into evidence, either from D.P. or Defendant, were ever
forensically tested. There was no testimony received whatsoever in Defendant’s trial regarding
D.P.’s sexual assault kit forensic testing or results thereof; notwithstanding that the kit was lost
or destroyed before the commencement of Defendant’s trial on January 26,1989. As previously
stated, the State filed no Brady Notices in Defendant’s case whatsoever.
Based on the sheer number of peculiarities surrounding the lack of forensic testing results
in this rape case for which Defendant is sentenced to life in prison, coupled with the complete
lack of record in Defendant’s trial regarding D.P.’s sexual assault kit; Defendant now claims that
the State indeed tested D.P.’s sexual assault kit forensically prior to the date alleged that it was
lost or destroyed, and later withheld DNA test results from Defendant prior to Defendant’s trial,
as a separate Brady violation.
Defendant now demands that the forensic test results of D.P.’s sexual assault kit, or an
affirmative acknowledgment from the State Attorney’s Office under oath that D.P.’s sexual
62

1

assault kit was not forensically tested, not tested for any DNA profile of an assailant, or not
otherwise examined with a suxnmaiy of test results or findings, prior to it’s loss or destruction
on or after January 18, 1989, be provided by the State, and that this Court Order the State to
produce said test results or verified Denial.
The record does not refute this Claim that the State obtained DNA test results from D.P.’s
sexual assault kit and withheld those test results from Defendant, such that an evidentiary hearing
is required specifically regarding this separate Brady violation.
CLAIM 10

JOHNSON RECEIVED INEFFECTIVE ASSISTANCE OF
COUNSEL WITH REGARDS TO THE PLEA NEGOTIATIONS
PROCESS, SUCH THAT HAD COUNSEL BEEN EFFECTIVE,
JOHNSON WOULD HAVE ACCEPTED THE STATE’S PLEA
OFFER PRIOR TO TRIAL AND BEFORE IT WAS REVOKED

Due process of law requires that a trial court advise the defendant of all direct
consequences of a plea prior to accepting it. Similarly, to be constitutionally effective, defense
counsel must advise a defendant of the direct consequences of a plea. See Rule 3.172 Fla. R.
Crim. P. A direct consequence of a plea is one that has a definite, immediate, and automatic
effect on the range of the defendant's punishment See Major v. State, 814 So.2d 424,431 (Fla.
2002). Johnson's defense counsel never adequately explained the plea offer to Johnson, the
strengths and weaknesses of the State’s case, file potential for a life sentence after conviction, or
the ramifications of not accepting the State’s fevorable plea offer to resolve this case in lieu of a

trial.
In the case of Missouri v. Frye, 132 S.Ct. 1399 (U.S. 2012), the Court held that counsel
may also provide ineffective assistance of counsel during the plea-bargaining process. Frye, 132

63

S.Ct. 1399. Johnson claims Frye error occurred that severely prejudiced his case. His counsel
never properly explained the plea offer that was proposed by the State, an estimate of actual time
that would be served, the likelihood of conviction, or that Johnson was facing life if convicted.
Had defense counsel competently advised Johnson of these things, Johnson would have accepted
the State’s plea offer.
In the landmark case of Missouri v. Frye, the Court stated:
“In Padilla v. Kentucky, 559 U.S. 356 (2010), where a plea offer was set aside
because counsel had misinformed the defendant of its immigration consequences,
this Court made clear that "the negotiation of a plea bargain is a critical" stage for
ineffective-assistance purposes, Id. at 373, and rejected the argument made by the
State in this case that a knowing and voluntary plea supersedes defense counsel's
errors.” Frye at 1405-1407.
To show prejudice where a plea offer has lapsed or been rejected because of counsel's
deficient performance, defendants must demonstrate a reasonable probability both that they
would have accepted the more favorable plea offer had they been afforded effective assistance of
counsel and that the plea would have been entered without the prosecution's canceling it or the
trial court's refusing to accept it, if they had the authority to exercise that discretion under state
law. This application of Strickland to uncommunicated, lapsed pleas does not alter Hill's
standard, which requires a defendant complaining that ineffective assistance led him to accept a
/

plea offer instead of going to trial to show "a reasonable probability that, but for counsel's errors,
he would not have pleaded guilty and would have insisted on going to trial." Hill v. Lockhart,
474 U. S. 52, 59 (1985). Hill correctly applies in the context in which it arose, but it does not
provide the sole means for demonstrating prejudice arising from counsel's deficient performance
during plea negotiations. Frye at 1409-1411.
64

I!

Further, Johnson's State and Federal Constitutional rights to due process of law and to
effective assistance of counsel were violated when his counsel misadvised Johnson on the
maximum statutory penalties for the offenses, the strengths and weaknesses of the State’s case,
the most likely outcome, the probable sentence, and what could be done to mitigate the sentence
if Johnson accepted the plea.
Jqhnson never knew that he was facing a life sentence. The State had initially offered a
plea of seventeen (17) years with a six (6) year minimum mandatory. Then, the State offered a
plea offer of twelve (12) years with a three (3) year minimum mandatory. Defense Counsel did
not relate the plea offers to Johnson in any meaningful manner so that Defendant could

m

intelligent and informed decision to accept a States’ plea offer in this case.
To show prejudice where a plea offer has lapsed or been rejected because of counsel's
deficient performance, a defendant must demonstrate a reasonable probability both that he would
have accepted the more favorable plea offer had he been afforded effective assistance of counsel
and that the plea would have been entered without the prosecution’s canceling it or the trial
court's refusing to accept it, if he had the authority to exercise that discretion under state law.
This application of Strickland to uncommunicated, lapsed pleas does not alter Hill's

standard,

which requires a defendant complaining that ineffective assistance led him to accept a plea

offer

instead of going to trial to show "a reasonable probability that, but for counsel's errors, he would
not have pleaded guilty and would have insisted on going to trial." Hill, 474 U.S. at 59
Hill correctly applies in the context in which it arose, but it does not provide the sole
means for demonstrating prejudice arising from counsel's deficient performance during plea

65

negotiations. In Frye, the defendant argued that with effective assistance he would have accepted
an earlier plea offer as opposed to entering an open plea. Accordingly, Strickland’s inquiry into
whether "the result of the proceeding would have been different," Strickland, 466 U. S. at 694,
requires looking not at whether the defendant would have proceeded to trial but at whether he
would have accepted the earlier plea offer. He must also show that, if the prosecution had the
discretion to cancel the plea agreement or the trial court had the discretion to refuse to accept it,
there is a reasonable probability neither the prosecution nor the trial court would have prevented
the offer from being accepted or implemented. This further showing is particularly important
because a defendant has no right to be offered a plea, see Weatherford v. Bursey, 429 U. S. 545,
561, nor a federal right that the judge accept it, Santobello v. New York, 404 U.S. 257,262.
Missouri, among other States, appears to give the prosecution some discretion to cancel a plea
agreement; and the Federal Rules of Criminal Procedure, some state rules, including Missouri's,
and this Court's precedents give trial courts some leeway to accept or reject plea agreements.
Frye at 1409-1411
Had his counsel properly explained the ramifications of the plea or even properly related
the plea offers, Johnson would not have left his fate up to chance and would have accepted a
reasonable plea offer. Taking the decision out of Johnson's hands illustrates another example of
the ineffectiveness of his counsel throughout this case.
"If a plea bargain has been offered, a defendant has the right to effective assistance
of counsel in considering whether to accept it If that right is denied, prejudice can
be shown if loss of the plea opportunity led to the imposition of a more severe
sentence." See Lafler v. Cooper, 132 S.Ct. 1376,1387 (2012).
So, no question exists, pursuant to Alcorn v. State, 121 So.3d 419 (Fla. 2013) and United
66

Sates Supreme Court precedent,
“• • • 10 establish prejudice, the defendant must allege and prove a
reasonable probability, defined as a probability sufficient to
undermine confidence in the outcome, that (1) he or she would
have accepted the offer had counsel advised fixe defendant
correctly, (2) the prosecutor would not have withdrawn the offer,
(3) the court would have accepted the offer, and (4) the conviction
or sentence, or both, under the offer’s terms would have been less
severe than under the judgment and sentence that in feet were
imposed. See Frye, 132 S. Ct at 1410; Alcorn at 430.
Here, Johnson verily asserts that he would have accepted the 12-year plea offer if the
same had been properly and adequately explained to him; the prosecutor would not have
withdrawn the offer; the Court would have accepted the offer; and finally, that the sentence
would have been less severe than that actually imposed.
It is unreasonable, in consideration of the facts of this case, to believe that Johnson would
have turned down a State’s Plea Offer of twelve years in prison with a three-year minimum
mandatory sentence for these offenses in 1989. Under Florida Department of Corrections rules in
effect at that time, Johnson would likely have served the three-year minimum mandatory prison
sentence and would have been released in 1991-1992. Instead, Johnson has a life sentence now
with no parole. Had Johnson received effective assistance of counsel within the meaning of the
6th and 14th Amendments to the United States and Florida Constitutions, he would have
accepted that reasonable plea offer rather than leaving his entire life up to chance, Defense
counsel’s performance fell markedly below the standard of competent counsel under the
standards pronounced in Strickland, for which Defendant was prejudiced and remains in custody
of the Department of Corrections now for life.

67

CLAIM 11

THE SINGULAR AND CUMULATIVE EFFECT OF THE ERRORS
SUBSTANTIALLY PREJUDICED ROOSEVELT JOHNSON'S STATE
AND FEDERAL CONSTITUTIONALS RIGHTS
The Supreme Court of Florida held that cumulative effect of evidentiary errors and

ineffective assistance claims together. Suggs v. State, 923 So.2d 419 (Fla. 2005) (citing State v.
Gunsby, 670 So.2d 920,924 (Fla. 1996)) (granting a new trial on the basis of the combined effect
of newly discovered evidence, the erroneous withholding of evidence, and ineffective assistance
of counsel). However, a claim of cumulative error will not be successful if a petitioner fails to
prove any of the individual errors he alleges. Bryan v. State, 748 So.2d 1003,1008 (Fla. 1999).
Johnson asserts that the singular and cumulative effect of the errors set forth supra
substantially prejudiced his rights to a fair trial and to a meaningful adversarial testing of the
State's case. Based upon unprofessional errors by defense counsel singularly or coupled with the
judge's errors, an evidentiary hearing or a new proceeding is required.
An Evidentiary Hearing Is Required in This Case
A criminal Petitioner is entitled to an evidentiary hearing on ineffectiveness claims
raised in a post-conviction motion unless: 1.) the Motion, files, and records in the case
conclusively show that the prisoner is entitled to no relief or 2.) the claim is legally insufficient.
Freeman v. State, 761 So.2d 1055,1061 (Fla. 2000). If the claim is legally insufficient for failure
to state a cognizable claim, the court must allow the Petitioner at least one opportunity to correct
the deficiency. Spera v. State, 971 So.2d 754,755 (Fla. 2007).
A trial court may only properly deny a motion for post-conviction relief without an

68

evidentiaiy hearing only if the allegations are conclusively refuted by the record. Anderson v.
State, 627 So.2d 1170 (Fla. 1993). A trial court must either state its

rationale in its decision or

attach those specific parts of the record that refute each claim presented in the motion. Id.
Here, an evidentiaiy hearing is required to resolve the conflict in the facts surrounding
Johnson's claims of ineffective assistance of counsel and his legal contentions that the verdict
was in contradiction of the evidence presented and that he was never given the right to accept or
deny a plea offer by the State. He was never presented with the offers nor was he

ever advised by

counsel thaf he could potentially be feeing a life sentenee. Johnson has presented sworn evidence
concerning his claims.
In light of the fact that Johnson's constitutional rights were violated, this

court "must

issue" a Writ of Habeas Coipus unless the State gives Johnson a new trial within

a reasonable
time. Bog** v. Richmond, 365 U.S. 534 (1961). Sagers sets forth the appropriate procedure to
be followed. Here, an evidentiaiy hearing is required to resolve 1he conflict in the fects
surrounding Johnson’s claims of ineffective assistance of counsel, the State’s Brady violations,
and fundamental error of the trial court, as delineated above in the instant Petition/Motion.
CONCLUSION
Based upon the foregoing grounds and authority, the Defendant Roosevelt Johnson,
respectfully requests this Honorable Court to Order the State to Respond to this Petition/Motion,
to later conduct an evidentiaiy hearing to resolve the fectual disputes raised by this

sworn

Petition/Motion, and thereafter to Onto- a new trial so that Johnson can receive effective
assistance of counsel and due process of law under the State and Federal C

69

onstitutions.

DECLARATION
I, ROOSEVELT JOHNSON, the Defendant in the above styled case, do hereby declare
under penalties of perjury and administrative sanctions from the Department of Corrections,
including forfeiture of gain time if tins Motion/Petition is found to be frivolous or made in bad
faith, I certify that I understand the contents of the foregoing Motion/Petition, that the facts
contained in the Motion/Petition are tine and correct, and that I have a reasonable belief that the
Motion/Petition is timely filed. I certify that this Motion/Petition does not duplicate previous
motions/petitions that have been disposed of by the Court I further certify that I understand the
English language and have read the foregoing Motion/Petition.
Signed on this

p,"

') '•

day of

L ,2019.

ROOSEVELJ^JOHNSON
DC# 390758

r.:-

70

.<■*

CERTIFICATE OF SERVICF.
I HEREBY CERTIFY that the foregoing has been filed via E-Portal Filin
gwith
the Clerk of Court and the Alachua C
ounty State Attorney’s Office (EService@sao8.ore)
on this
-£Z_oay of MAY, 2019.
Respectfully submitted,
LAW OFFICES OF RICHARD ROSENBAUM
/s/ Richard L. Rosenbaum
Richard L. Rosenbaum, Esq.
Fla. Bar No: 394688
315 SE 7th Street, Suite 300
Fort Lauderdale, FL 33301
Telephone (954) 522-7007
Facsimile (954) 522-7003
Primary Email: Richani@RLRosenbaiim.com
Secondary Email: Pleadings@RLRosenbaum.eom

71

Additional material
from this filing is
available in the
Clerk's Office.

